OO




     Office of Inspector General

     Semiannual Report
     to the Congress
     October 1, 2002 - March 31, 2003
FDIC Office of Inspector General
  Strategic Plan Framework
         (2003-2007)




         Strategic Goals




★                ★                 ★




       Strategic Objectives




★                ★                 ★




           Core Values
Inspector General’s
Statement
As I write this statement, our military men and women        reduce organizational costs and increase efficiencies.
are engaged in operations in Iraq. We honor the mem-         Now, with more organizational stability, the Corpora-
ory of brave Americans who have sacrificed their lives       tion can increase attention given to operational costs as
in that effort and appreciate all others who dedicate        well–that is, more fully integrating cost considerations
themselves to serving our country in the military.           into day-to-day decision making. The OIG first identi-
Their commitment to our nation deepens the pride that        fied the challenge of assessing business processes and
we feel as public servants carrying out the mission of       containing costs as a Major Issue in our April 2001
the Office of Inspector General (OIG) at the Federal         semiannual report and will continue to foster the
Deposit Insurance Corporation (FDIC).                        Corporation’s initiatives in this area.

In that regard, my statement for this 6-month period         The Corporation has also made progress in the
focuses on the Corporation’s progress in areas that the      information security area. As highlighted in our last
OIG previously identified and areas where further            semiannual report, based on the results of our 2002
actions are necessary. During the period, FDIC               Government Information Security Reform Act evalua-
Chairman Donald Powell continued to provide strong           tion, we listed 10 steps that the Corporation could take
leadership and direction to the Corporation. His             in the near term to improve information security. We
1st Quarter Letter to Stakeholders articulated the corpo-    advised that one such step would be to strengthen
rate priorities for 2003: Stability of the industry and      accountability and authority for information security
the insurance funds, Sound Policy positions supported        by appointing a permanent Chief Information Officer
by substantive research and led by comprehensive             who would report directly and solely to the Chairman
deposit insurance reform legislation, and Stewardship        and by filling key vacancies within the Division of
of the Corporation and insurance funds to ensure that        Information Resources Management (DIRM) that sup-
the FDIC does its job in the most efficient and effective    port information security initiatives and operations.
manner possible. The OIG supports and will continue          The Corporation has filled a number of DIRM vacancies
efforts to further these priorities through our audits,      since that time and is now actively seeking a Chief
evaluations, and investigations.                             Information Officer.

The priorities outlined above warrant attention of the       A second step involved completing an enterprise archi-
highest governance level of the FDIC–the Board of            tecture to document current and desired relationships
Directors. Again, I express my concern over an FDIC          among business and management processes and infor-
Director vacancy going back to September 1998. The           mation technology. Again, the Corporation has pro-
balance between the various interests implicit in the        gressed in this area by devoting resources, developing
Board’s structure is preserved only when all Board           policies, and preparing an enterprise architecture
positions are filled. I continue to believe that the over-   blueprint. These actions have set the stage for an
all governance of the Corporation would be best served       enterprise architecture that will facilitate planning and
by filling the vacant position so that a full Board is in    decision making and help improve information tech-
place to pursue corporate priorities.                        nology security. The Corporation now needs to sustain
                                                             the momentum and actually establish such an archi-
A notable area where the Corporation has continued to        tecture. A third critical step was ensuring contractor
make progress during the reporting period relates to         security, a vulnerable area given the FDIC’s reliance
the FDIC’s efforts to contain organizational costs.          on contractor support for information technology oper-
Corporate downsizing, reorganizations in both head-          ations. Through the efforts of an FDIC task force, a
quarters and field sites, office closings, and plans for a   number of policies and procedures are underway to
new Virginia Square facility to house FDIC employees         better ensure security of contractor information and
are just some of the successful measures undertaken to       resources. Our office is monitoring corporate efforts to



 2                                                                                                            1
address all information security concerns as part of our   operations, the community impacts society in positive
2003 review under the Federal Information Security         ways. We at the FDIC OIG will be ready to celebrate
Management Act and will report results in the next         our public service and recommit to our FDIC mission
semiannual period.                                         in the fall. I was sworn in as the IG at the FDIC 7 years
                                                           ago to carry out the IG mission and have appreciated
Turning now to the OIG’s recent progress. During the       the support I have received from the Corporation, the
past 6 months, we continued efforts to stabilize our       Congress, and the FDIC OIG staff over the years. With
organization and operations through downsizing             their continued support, I am confident that we will
measures that are now nearly complete. Despite our         successfully and cooperatively meet all challenges
reduction in staff, we have managed to maintain and in     ahead.
some cases increase our productivity, and we continue
to work cooperatively with corporate management and
the FDIC Audit Committee on issues of mutual interest.
Among our accomplishments during the reporting
period, we issued 27 audit reports containing 90 non-
                                                           Gaston L. Gianni, Jr.
monetary recommendations and nearly $1.26 million
                                                           Inspector General
in monetary benefits. OIG investigations resulted in
                                                           April 30, 2003
13 indictments/informations; 14 convictions; and
approximately $26.2 million in fines, restitution, and
other monetary recoveries. We reported the results of
our material loss review of the failure of Connecticut
Bank of Commerce, an institution whose failure caused
an estimated $63 million loss to the insurance funds.
We provided our assessment of the Most Significant
Management and Performance Challenges to the
Corporation and issued our 2003 Performance Plan, an
ambitious strategic framework that drives OIG results.
We also celebrated several noteworthy individual
accomplishments during the reporting period: Mike
Lombardi and Monte Galvin from our Office of Audits
were honored at the Corporation’s Annual Awards
Ceremony in March 2003 with the Chairman’s Award
for Excellence for a Team Contribution, and the Nancy
K. Rector Award for Public Service, respectively.

Going forward, the OIG will build on past accomplish-
ments and continue to emphasize productivity, per-
formance, process improvement, and people. Our
office, established in 1989 by the FDIC Board of
Directors pursuant to the Inspector General (IG) Act
amendments of 1988, also looks forward to October
2003 when we will join with others in the IG commu-
nity to mark the 25th anniversary of the IG Act of 1978.
Charged with promoting economy, efficiency, effective-
ness, and integrity in government programs and




 2                                                                                                               3
Ta b l e o f Co n t e n t s
           Inspector General’s Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
           Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
           Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
           Management and Performance Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
           Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
           OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43




                                                  "
           Reporting Terms and Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .52
           Appendix I: Statistical Information Required by the Inspector
                                General Act of 1978, as amended . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54
           Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .63


           Tables




                                                                                 "
           Table 1: Significant OIG Achievements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47
           Table 2: Nonmonetary Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47


           Figures
           Figure 1: Products Issued and Investigations Closed . . . . . . . . . . . . . . . . . . . . . . . .50
           Figure 2: Questioned Costs/Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . .50
           Figure 3: Fines, Restitution, and Monetary Recoveries
                           Resulting from OIG Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50




4
Overview
Management and Performance                                  reviews containing both monetary and nonmonetary
Challenges                                                  recommendations; comments and input to the
                                                            Corporation’s various performance plans and account-
The Management and Performance Challenges sec-              ability reports; participation at meetings, symposia,
tion of our report presents OIG results of audits, evalu-   conferences, and other forums to jointly address issues
ations, and other reviews carried out during the report-    of concern to the Corporation and the OIG; and assis-
ing period in the context of the OIG’s view of the most     tance provided to the Corporation in such areas as the
significant management and performance challenges           conduct of the U.S. General Accounting Office financial
currently facing the Corporation. We identified the         statement audit and review of the Corporation’s
following 10 management and performance challenges          Internal Control and Risk Management Program. (See
and, in the spirit of the Reports Consolidation Act of      pages 11-32.)
2000, we presented our assessment of them to the Chief
Financial Officer of the FDIC in February 2003. The         Investigations
Act called for these challenges to be presented in the      In the Investigations section of our report, we feature
FDIC’s consolidated performance and accountability          the results of work performed by OIG agents in
report. Our work has been and continues to be largely       Washington, D.C., Atlanta, Dallas, and Chicago who
designed to address these challenges and thereby help       conduct investigations of alleged criminal or otherwise
ensure the FDIC’s successful accomplishment of its          prohibited activities impacting the FDIC and its pro-
mission.                                                    grams. In conducting investigations, the OIG works
   ✰ Adequacy of Corporate Governance in                    closely with U.S. Attorney’s Offices throughout the
     Insured Depository Institutions                        country in attempting to bring to justice individuals
                                                            who have defrauded the FDIC. The legal skills and out-
   ✰ Protection of Consumer Interests                       standing direction provided by Assistant United States
                                                            Attorneys with whom we work are critical to our suc-
   ✰ Security of Critical Infrastructure                    cess. The results we are reporting for the last 6 months
                                                            reflect the efforts of 19 U.S. Attorney’s Offices through-
   ✰ Management and Analysis of Risks to the
                                                            out the United States. Our write-ups also reflect our
     Insurance Funds
                                                            partnering with the Federal Bureau of Investigation,
   ✰ Effectiveness of Resolution and Receivership           the Internal Revenue Service, Secret Service, and other
     Activities                                             law enforcement agencies in conducting investigations
                                                            of joint interest.
   ✰ Management and Security of Information
     Technology Resources                                   Investigative work during the period led to indictments
                                                            or criminal charges against 13 individuals and convic-
   ✰ Assessment of Corporate Performance                    tions of 14 defendants. Criminal charges remained
                                                            pending against 14 individuals as of the end of the
   ✰ Transition to a New Financial Environment              reporting period. Fines, restitutions, and recoveries
                                                            stemming from our cases totaled almost $26.2 million.
   ✰ Organizational Leadership and Management
                                                            This section of our report also includes information on
     of Human Capital
                                                            a legislative proposal we have put forth to the Congress
   ✰ Cost Containment and Procurement Integrity             to enhance enforcement authority for misrepresenta-
                                                            tions regarding FDIC insurance. (See pages 33-42.)
OIG work conducted to address these areas during the
reporting period includes 27 audit and evaluation




                                                                                                                   7
OIG Organization
In the Organization section of our report, we note
some of the significant internal activities that the FDIC
OIG has recently pursued. Chief among these are
(1) issuance of our Fiscal Year 2003 Performance Plan,
which reflects an updated strategic framework with
improved linkages to the FDIC Strategic Plan, the OIG
Human Capital Strategic Plan, the OIG Office of Audits’
Assignment Plan, and the OIG-identified Management
and Performance Challenges referenced above and
(2) efforts in furtherance of our Human Capital
Strategic Plan related to competencies and the business
knowledge and skills needed by OIG staff to provide
maximum value to the Corporation. Activities of OIG
Counsel and cumulative OIG results covering the past
five reporting periods are also shown in this section.
(See pages 43-51.)

Appendix
The Appendix of our report contains much of the
statistical information required under the Inspector
General Act, as amended. Additionally, the back section
of our report features career accomplishments of some
of our current and past FDIC OIG colleagues. Page 66
of our report highlights the IG community’s results
during fiscal year 2002. (See pages 54-end.)




 8
Highlights
✰ The Office of Audits issues 27 reports containing       ✰ The OIG continues to implement its Human Capital
  total questioned costs of $314,357 and funds put to       Strategic Plan for 2002-2006, focusing on develop-
  better use of $945,778.                                   ment of OIG workforce competencies and adminis-
                                                            tration of a business knowledge and skills inventory
✰ OIG reports include 90 nonmonetary recommenda-            tool to all staff.
  tions to improve corporate operations and activities.
  Among these are recommendations to strengthen           ✰ The Offices of Inspector General of the FDIC,
  the examination process in key risk areas; improve        Department of the Treasury, and the Board of
  the effectiveness of internal network controls;           Governors of the Federal Reserve System sponsor
  develop additional policy for procurement credit          the Second Emerging Issues Symposium, bringing
  card activities; and enhance the regulatory over-         together distinguished speakers who share their
  sight in the application process for mergers,             perspectives on the banking and financial services
  acquisitions, or changes in control and in the            community with Inspector General staff in the
  advance notification of changes in bank management.       interest of enhancing the value that OIGs can add
                                                            to their respective agencies by successfully
✰ The OIG reports positive results of audits related to     addressing risk areas.
  the FDIC’s Corporate Readiness Plan, examiner
  assessment of subprime lending, and examiner            ✰ OIG counsel litigates one matter during the report-
  use of work performed by independent public               ing period and provides advice and counsel on a
  accountants.                                              number of issues. Counsel assisted the Corporation
                                                            in litigating 1 matter and is involved in 23 litigation
✰ OIG investigations result in 13 indictments/infor-        matters that are awaiting further action by the
  mations; 14 convictions; and approximately                parties or rulings by the court or other adjudicatory
  $26.2 million in total fines, restitution, and other      bodies.
  monetary recoveries. Approximately $25.8 million
  of that amount represents court-ordered restitution     ✰ The OIG reviews and comments on 1 proposed fed-
  and is an amount that has not yet been collected.         eral regulation and 35 proposed FDIC policies and
                                                            directives and responds to 2 requests under the
✰ In February 2003, the OIG provides the Chief              Freedom of Information Act. Substantive com-
  Financial Officer the OIG’s assessment of the             ments are provided to the Corporation related to
  Most Significant Management and Performance               proposed policies on various aspects of informa-
  Challenges facing the Corporation, in the spirit of       tion technology security.
  the Reports Consolidation Act of 2000. The OIG
  sharpens the focus of its work to address the           ✰ The OIG reports the results of its Material Loss
  challenges identified.                                    Review of the Failure of Connecticut Bank of
                                                            Commerce, an institution that failed and may cause
✰ The OIG issues its fiscal year 2003 Annual                losses to the insurance funds of approximately
  Performance Plan with improved linkages to the            $63 million. The OIG identifies weak corporate
  FDIC Strategic Plan, the OIG Human Capital                governance at the institution as the principal cause
  Strategic Plan, the Office of Audits’ Assignment          of failure and makes five recommendations to
  Plan, and OIG-identified management and                   improve the safety and soundness examination
  performance challenges.                                   process and information available to examiners.
✰ The Office of Audits issues its Assignment Plan         ✰ In response to a request from Representative
  for fiscal year 2003, focusing its work on the            Michael G. Oxley, Chairman, Committee on
  Corporation’s principal business lines.                   Financial Services, U.S. House of Representatives,



                                                                                                                9
     to the Chairman of the FDIC for proposals for         ✰ Two OIG staff are among those honored at the
     legislation to be considered by the Committee, the      Corporation’s Annual Awards Ceremony. Mike
     OIG submits two proposals. The first proposal is to     Lombardi receives the Chairman’s Excellence
     amend the FDIC’s enforcement authority in the           Award for Group/Team Contributions as part of the
     Federal Deposit Insurance Act to authorize civil        Risk Management Examination Process Redesign 2
     monetary penalties for misuse of the FDIC logo,         (MERIT) Team, and Monte Galvin is the recipient
     abbreviation, or other commonly recognized sym-         of the Nancy K. Rector Public Service Award for her
     bols of federal deposit insurance. Second, the OIG      volunteer service to Habitat for Humanity.
     proposes amending the Act to clarify the Inspector
     General’s authority to conduct financial statement    ✰ The OIG completes its annual review of the FDIC’s
     audits of the Corporation and the insurance funds.      Internal Control and Risk Management Program,
                                                             concluding that the program was conducted in
✰ The OIG submits its fiscal year 2004 appropriation         accordance with FDIC policy and consistent with
  request to the Subcommittee on VA, HUD and                 provisions of the Federal Managers’ Financial
  Independent Agencies, Committee on Appropria-              Integrity Act.
  tions, U.S. House of Representatives. The OIG
  requests $30.1 million for fiscal year 2004 to           ✰ As Vice Chair of the President’s Council on Integrity
  fund 168 staff.                                            and Efficiency, the Inspector General leads the
                                                             Inspector General community’s activities, partici-
✰ The OIG responds to a request from Senator                 pates as a presenter at numerous professional con-
  Barbara Mikulski and confirms to her that the              ferences and other forums, and shares information
  information the FDIC provided to the Congress              and best practices with delegations of foreign
  related to outsourcing some of its Data Center             visitors.
  positions was adequately supported.

✰ The OIG coordinates with and assists management
  on a number of initiatives, including offering advi-
  sory comments to management on the FDIC’s 2003
  Annual Performance Plan and 2002 Annual Report,
  Office of Investigations and Office of Audits
  Executives’ participation at the Division of
  Supervision and Consumer Protection Field Office
  Supervisor meetings, and providing an updated
  risk analysis document on the Quality of Bank
  Financial Reporting and Auditing and Corporate
  Governance.

✰ The OIG accomplishes a number of internal office
  initiatives, including administering the OIG’s
  Business Knowledge Inventory System, sharing
  best practices with other OIGs, issuing our 2002
  Performance Report, and participating in numerous
  interagency working groups.




10
Management and
Performance
Challenges
                                                             ✰ Management and Analysis of Risks to the
  The Federal Deposit Insurance Corporation (FDIC)             Insurance Funds
  is an independent agency created by the Congress
  to maintain stability and confidence in the nation’s       ✰ Effectiveness of Resolution and Receivership
  banking system by insuring deposits, examining               Activities
  and supervising financial institutions, and manag-
  ing receiverships. Approximately 5,400 individuals         ✰ Management and Security of Information
  within seven specialized operating divisions and             Technology Resources
  other offices carry out the FDIC mission through-
  out the country. According to the Corporation’s            ✰ Assessment of Corporate Performance
  Letter to Stakeholders, issued for the 1st Quarter
  2003, as of December 30, 2002, the FDIC insured            ✰ Transition to a New Financial Environment
  $3.387 trillion in deposits for 9,372 institutions. As
                                                             ✰ Organizational Leadership and Management of
  of March 31, 2003, the FDIC supervised 5,354 insti-
  tutions and held assets in liquidation of $1.538             Human Capital
  billion. There are 40 active receiverships in the
                                                             ✰ Cost Containment and Procurement Integrity
  Bank Insurance Fund and Savings Association
  Insurance Fund. The Corporation maintains insur-           Earlier, we shared a listing of these challenges with
  ance funds in excess of $43 billion to ensure deposi-
                                                             corporate offices and divisions. There are close
  tors are safeguarded.
                                                             parallels between our previously reported “major
                                                             issues” and the challenges we presented in February.
In previous semiannual reports, we identified our view
                                                             The Corporation’s more recent comments on the chal-
of the most significant issues facing the Corporation as
                                                             lenges attested to the fact that the Corporation has had
it carries out its mission. Over the past 7 years, we have
                                                             a number of actions underway to address each of the
reported our work in the context of these major issues
                                                             areas discussed, and we encouraged continued atten-
in our semiannual reports, largely in response to the
                                                             tion to all of these challenges. For its part, the OIG will
request of various congressional Committees that OIGs
                                                             continue to pursue audits, evaluations, investigations,
identify these issues across the government. During the
                                                             and other reviews that address the management and
reporting period, we again considered these issues, but
                                                             performance challenges we identified. Our work dur-
in a slightly different context. To explain—in the spirit
                                                             ing the reporting period can be linked directly to these
of the Reports Consolidation Act of 2000, in February
                                                             challenges and is presented as such in the sections
2003, we provided the Chief Financial Officer (CFO) of
                                                             that follow. We will continue to work with corporate
the FDIC the OIG’s assessment of “the most significant
                                                             officials to successfully address each challenge.
management and performance challenges” facing the
Corporation. The Act calls for these challenges to be
                                                             Adequacy of Corporate Governance in
included in the FDIC’s 2002 consolidated performance
and accountability report.
                                                             Insured Depository Institutions
                                                             A number of well-publicized announcements of busi-
We identified the following management and perform-
                                                             ness failures, including financial institution failures,
ance challenges:
                                                             have raised questions about the credibility of account-
✰ Adequacy of Corporate Governance in Insured                ing practices and oversight in the United States. These
  Depository Institutions                                    recent events have increased public concern regarding
                                                             the adequacy of corporate governance and, in part,
✰ Protection of Consumer Interests                           prompted passage of the Sarbanes-Oxley Act of 2002.
                                                             The public’s confidence in the nation’s financial system
✰ Security of Critical Infrastructure




                                                                                                                     11
can be shaken by deficiencies in the adequacy of cor-       Letters, allowing bank directors to participate in regu-
porate governance in insured depository institutions.       lar meetings between examiners and bank officers, a
For instance, the failure of senior management, boards      “Director’s Corner” on the FDIC Web site, and expan-
of directors, and auditors to effectively conduct their     sion of the Corporation’s “Director’s College” program.
duties has contributed to some recent financial institu-    The adequacy of corporate governance will continue to
tion failures. In certain instances, Board members and      require the FDIC’s vigilant attention.
senior management engaged in high-risk activities
                                                            OIG Comments on Corporation’s Inclusion of
without proper risk management processes, did not           Corporate Governance Issues in Consolidated
maintain adequate loan policies and procedures, and         Annual Report
circumvented or disregarded various laws and banking        The OIG provided a substantive suggestion to the CFO
regulations. In other instances, independent public         and the Acting Director of the Office of Internal Control
accounting firms rendered unqualified opinions on the       Management for consideration in the preparation of
institutions’ financial statements when, in fact, the       the Corporation’s consolidated annual report. We sug-
statements were materially misstated. To the extent         gested that the report include a discussion of the risks
that financial reporting is not reliable, the regulatory    associated with bank corporate governance (including
processes and FDIC mission achievement, that is             the quality of bank financial reporting and auditing)
ensuring the safety and soundness of the nation’s           and the challenges of Sarbanes-Oxley Act implementa-
financial system, can be adversely affected. For exam-      tion. To facilitate consideration of this matter, we pro-
ple, essential research and analysis used to achieve the    vided a risk analysis document on March 10, 2003,
supervision and insurance missions of the Corporation       entitled 2003 Update: FDIC Continuing Risk - The
can be complicated and potentially compromised by           Quality of Bank Financial Reporting and Auditing and
poor quality financial reports and audits. Potentially      Corporate Governance.
the insurance funds can be affected by financial institu-
tion and other business failures involving financial        While we acknowledged in our analysis that the pas-
reporting problems. In the worst case, illegal and oth-     sage of the Sarbanes-Oxley Act of 2002 was a signifi-
erwise improper activity by management of financial         cant step in addressing corporate governance and
institutions or their boards of directors can be con-       accountability issues, the Act has not been fully imple-
cealed, resulting in significant potential losses to the    mented and its future effectiveness is not known. We
FDIC insurance funds.                                       believe the FDIC, along with other financial institution
                                                            regulators should play an active role, along with the
The Corporation has initiated various measures              Securities and Exchange Commission, in implementa-
designed to mitigate the risk posed by these concerns,      tion of Sarbanes-Oxley.
such as reviewing the bank’s board activities and
ethics policies and practices and reviewing auditor         The nature of the corporate governance and financial
independence requirements. In addition, the FDIC            reporting risks involves unknown quantities (e.g., the
reviews the financial disclosure and reporting obliga-      extent of unreliable data reported and extent of unde-
tions of publicly traded state nonmember institutions       tected fraud), and, as a result, the true magnitude and
as well as their compliance with other Securities and       impact of the risks cannot be reasonably quantified or
Exchange Commission regulations and the Federal             projected. However, the potential impact of the risks
Financial Institutions Examination Council-approved         could be material and constitutes a significant vulnera-
and recommended policies to help ensure accurate and        bility to the FDIC’s ability to effectively achieve its
reliable financial reporting through an effective exter-    insurance and supervision missions. Absent full and
nal auditing program. Other corporate governance ini-       effective implementation of mechanisms, such as those
tiatives include the FDIC issuing Financial Institution     envisioned under Sarbanes-Oxley (including a program




12
of effective oversight of the quality of independent public    regulations by conducting compliance examinations,
accounting audits), we believed reasonable assurance           taking enforcement actions to address unsafe or
did not currently exist to conclude that the potential         unsound banking practices and compliance violations,
adverse impact of these risks could be prevented or            encouraging public involvement in the compliance
avoided.                                                       process, assisting financial institutions with fair lend-
                                                               ing and consumer compliance through education and
In consideration of our suggestion, the Corporation            guidance, and providing assistance to various parties
included a brief discussion of corporate governance in         within and outside of the FDIC.
its report. The report noted various measures initiated
to mitigate the risk of increased public concern regard-       The FDIC’s examination and evaluation programs
ing accounting practices and oversight and the adequacy        must assess how well the institutions under its super-
of corporate governance, which, in part, prompted pas-         vision manage compliance with consumer protection
sage of the Sarbanes-Oxley Act of 2002. In particular,         laws and regulations and meet the credit needs of their
the report cited reviewing board activities, ethics policies   communities, including low- and moderate-income
and practices of the banks the FDIC supervises, and            neighborhoods. The FDIC must also work to issue reg-
auditor independence requirements. The report also             ulations that implement federal consumer protection
cited guidance issued by the FDIC in early 2003 to             statutes—both on its own initiative and together with
institutions about the Sarbanes-Oxley Act, including           the other federal financial institution regulatory agen-
the actions that the FDIC encourages institutions to           cies. One important focus will be the Gramm-Leach-
take to ensure sound corporate governance.                     Bliley Act, as the Corporation must ensure it has a
                                                               quality program to examine institution compliance
The issue of ineffective corporate governance was              with the privacy and other provisions of the Act.
also identified in our Material Loss Review of the
Connecticut Bank of Commerce as the main cause                 The Corporation’s community affairs program provides
of the institution’s failure (see write-up on page 16 of       technical assistance to help banks meet their responsi-
this report). Also in this connection, see our write-up        bilities under the Community Reinvestment Act. The
of our audit of Examiner Use of Work Performed by              current emphasis is on financial literacy, aimed specif-
Independent Public Accountants on page 20.                     ically at low- and moderate-income people who may
                                                               not have had banking relationships. The Corporation’s
Protection of Consumer Interests                               “Money Smart” initiative is a key outreach effort. The
                                                               FDIC must also continue efforts to maintain a
The FDIC is legislatively mandated to enforce various
                                                               Consumer Affairs program by investigating consumer
statutes and regulations regarding consumer protection
                                                               complaints about FDIC-supervised institutions and
and civil rights with respect to state-chartered, non-
                                                               answering consumer inquiries regarding consumer
member banks and to encourage community investment
                                                               protection laws and banking practices.
initiatives by these institutions. Some of the more
prominent laws and regulations in this area include            The OIG’s ongoing work in this area includes a review
the Truth in Lending Act, Fair Credit Reporting Act,           of the implementation of Gramm-Leach-Bliley Act
Real Estate Settlement Procedures Act, Fair Housing            customer privacy provisions. Results of this work will
Act, Home Mortgage Disclosure Act, Equal Credit                be presented in an upcoming semiannual report.
Opportunity Act, Community Reinvestment Act of 1977,
and Gramm–Leach-Bliley Act.                                    Security of Critical Infrastructure
The Corporation accomplishes its mission related to            The adequate security of our nation’s critical infra-
fair lending and other consumer protection laws and            structure has been at the forefront of the federal




                                                                                                                       13
                  Symposium . . . . . .                                        Symposium . . . . . .

government’s agenda for many years. Specifically, the       To effectively protect critical infrastructure, the FDIC’s
President’s Commission on Critical Infrastructure           challenge in this area is to implement measures to mit-
Protection (established in July 1996) was tasked to         igate risks, plan for and manage emergencies through
formulate a comprehensive national strategy for             effective contingency and continuity planning, coordi-
protecting the nation’s critical infrastructure from        nate protective measures with other agencies, deter-
physical and “cyber” threats. Included among the            mine resource and organization requirements, and
limited number of systems whose incapacity or               engage in education and awareness activities. The
destruction were deemed to have a debilitating impact       FDIC will need to continue to work with the
on the defense or economic security of the nation was       Department of Homeland Security and the Finance and
the banking and finance system. With the increased          Banking Information Infrastructure Committee created
consolidation and connectivity of the banking industry      by EO 23231 and chaired by the Department of the
in the years since 1996, and with the new awareness of      Treasury, on efforts to improve security of the critical
the nation’s vulnerabilities to terrorist attacks since     infrastructure of the nation’s financial system.
September 11, 2001, the security of the critical
infrastructure in the banking industry is even more         The OIG is nearing completion of its review of the
important.                                                  FDIC’s efforts to implement its Information Security
                                                            Strategic Plan. This review is part of the President’s
On May 22, 1998, the Presidential Decision Directive        Council on Integrity and Efficiency and the Executive
(PDD) 63 was signed, calling for a national effort to       Council on Integrity and Efficiency Audit Committee’s
ensure the security of the nation’s critical infrastruc-    review of the nation’s critical infrastructure assurance
tures. PDD 63 defined the critical infrastructure as the    program. Our review objective is to evaluate the
“physical and cyber-based systems essential to the          adequacy of the FDIC’s activities for protecting critical
minimum operations of the economy and government.”          cyber-based infrastructures. We will issue the results of
President Bush declared that securing our critical          that work in our next semiannual report.
infrastructure is essential to our economic and national
security and issued two Executive Orders (EO 13228,         Management and Analysis of Risks to
The Office of Homeland Security and the Homeland            the Insurance Funds
Security Council and EO 23231, Critical Infrastructure
                                                            A primary goal of the FDIC under its insurance pro-
Protection in the Information Age) to improve the
                                                            gram is to ensure that its deposit insurance funds do
federal government’s critical infrastructure protection
                                                            not require resuscitation by the U.S. Treasury.
program in the context of PDD 63.
                                                            Achieving this goal is a considerable challenge, given
The intent of PDD 63 is to ensure that the federal          that the FDIC supervises only a portion of the insured
government maintains the capability to deliver services     depository institutions. The identification of risks to
essential to the nation’s security, economy, and the        non-FDIC supervised institutions requires effective
health and safety of its citizens, in the event of a        communication and coordination with the other feder-
cyber- or physical-based disruption. Much of the            al banking agencies. The FDIC engages in an ongoing
nation’s critical infrastructure historically has been      process of proactively identifying risks to the deposit
physically and logically separate systems that had little   insurance funds and adjusting the risk-based deposit
interdependence. However, as a result of technology,        insurance premiums charged to the institutions.
the infrastructure has increasingly become automated
                                                            Recent trends and events continue to pose risks to the
and interconnected. These same advances have created
                                                            funds. From January 1, 2002 to March 31, 2003,
new vulnerabilities to equipment failures, human
                                                            11 banks and 1 thrift institution have failed and the
error, and natural disasters as well as terrorism and
                                                            potential exists for additional failures. While some
cyber attacks.



14
              Symposium . . . . . .                                 Symposium . . . . . .

                                                 failures may be attributable primarily or in part to eco-
   Offices of Inspector General                  nomic factors, bank mismanagement and fraud have
    Sponsor Second Emerging                      also been factors in most recent failures. The environ-
        Issues Symposium                         ment in which financial institutions operate is evolving
                                                 rapidly, particularly with the acceleration of interstate
During the reporting period, the Offices of      banking, new banking products and complex asset
Inspector General of the Department of the       structures, and electronic banking. The industry’s
Treasury, the Board of Governors of the          growing reliance on technologies, particularly the
Federal Reserve System, and the FDIC jointly
                                                 Internet, has changed the risk profile of banking. The
sponsored a second Emerging Issues
Symposium at the FDIC’s Seidman Center.          consolidations that may occur among banks and secu-
Again this year, the forum brought together a    rities firms, insurance companies, and other financial
number of speakers who shared their per-         services providers resulting from the Gramm-Leach-
spectives on the banking and financial servic-   Bliley Act pose additional risks to the FDIC’s insurance
es industries and the challenges facing all      funds. The Corporation’s risk-focused examination
who are involved in those arenas. Among the      process must operate to identify and mitigate these
distinguished speakers were Vice Chairman        risks and their real or potential impact on financial
Reich from the FDIC; John Hawke,
                                                 institutions to preclude adverse consequences to the
Comptroller of the Currency; James Gilleran,
Director of the Office of Thrift Supervision     insurance funds.
(OTS); and Rick Riccobono, Deputy Director,
OTS. Additionally, staff representatives from    Another risk to the insurance funds results from bank
the Senate Committee on Banking, Housing         mergers that have created “megabanks,” or “large
and Urban Affairs and the House Committee        banks” (defined as institutions with assets of over
on Financial Services highlighted certain        $25 billion). For many of these institutions, the FDIC
banking and financial services-related issues    is the insurer but is not the primary federal regulator.
of congressional interest and the role the       Megabanks offering new or expanded services also
Inspector General community can play in          present challenges to the FDIC. The failure of a mega-
addressing such issues. Other sessions
                                                 bank, for example, along with the potential closing of
included presentations by several of our FDIC
colleagues on such topics as Emerging Risks      closely affiliated smaller institutions, could result in
to the Insurance Funds, Basel II, and Identity   such losses to the deposit insurance funds as to require
Theft; a session on Cyber Security by a repre-   significant increases in premium assessments from an
sentative from the General Accounting Office;    institution.
a panel discussion by the Securities and
Exchange Commission on Accounting Issues         Further, because of bank mergers and acquisitions,
and Corporate Governance; a discussion of        many institutions hold both Bank Insurance Fund
Trends in Financial Institution Crime, given     (BIF) and Savings Association Insurance Fund (SAIF)
by a Senior Trial Attorney from the              insured deposits, obscuring the difference between the
Department of Justice; and a presentation by
                                                 funds. There has been ongoing consideration of merg-
the Director of FinCEN. Participants at the
symposium appreciated the opportunity to         ing the two insurance funds, with the thought being
come together and hear such dynamic and          that the merged fund would not only be stronger and
enlightening discussion. Ideas presented dur-    better diversified but would also eliminate the concern
ing the symposium will serve to enhance the      about a premium disparity between the BIF and the
work of the Inspector General community          SAIF. Assessments in the merged fund would be based
and the value we can add to our respective       on the risk that institutions pose to the single fund. The
agencies.                                        prospect of different prices for identical deposit insur-
                                                 ance coverage would be eliminated. Also, insured




                                                                                                       15
institutions would no longer have to track their BIF          approach. Risk-based premiums can provide the ability
and SAIF deposits separately, resulting in cost savings       to better match premiums charged to institutions with
for the industry. The Corporation has worked hard to          related risk to the insurance funds.
bring about deposit insurance reform and needs to
                                                              Material Loss Review of the Failure of the
continue to work with the banking community and the           Connecticut Bank of Commerce, Stamford,
Congress in the interest of eventual passage of reform        Connecticut
legislation. Shortly after the end of the reporting period,   During the reporting period, in accordance with
on April 2, 2003, the House of Representatives passed         Section 38(k) of the FDI Act, the OIG conducted a
comprehensive deposit insurance reform by a vote of           material loss review of the failure of the Connecticut
411-11.                                                       Bank of Commerce (CBC), Stamford, Connecticut. Our
                                                              audit objectives were to: (1) ascertain why the bank’s
Another risk to the insurance funds relates to the des-
                                                              failure resulted in a material loss to the insurance fund
ignated reserve ratio. As of March 31, 2002, the BIF
                                                              and (2) assess the FDIC’s supervision of the bank,
reserve ratio was at 1.23 percent, the first time it had
                                                              including implementation of the Prompt Corrective
fallen below 1.25 percent since 1995. By June 30, 2002,
                                                              Action requirements of Section 38 of the FDI Act. CBC
the BIF reserve ratio was at 1.26 percent, slightly above
                                                              was closed on June 26, 2002. At the time of failure,
the statutorily mandated designated reserve ratio for
                                                              CBC had total assets of approximately $379 million. As
the deposit insurance funds. As of December 31, 2002,
                                                              of December 31, 2002, the FDIC estimated that the
the BIF ratio was at 1.27 percent. If the BIF ratio is
                                                              failure of CBC may ultimately cost the BIF $63 million.
below 1.25 percent, in accordance with the Federal
Deposit Insurance Act (FDI Act), the FDIC Board of            We reported that CBC failed and resulted in a material
Directors must charge premiums to banks that are              loss to the BIF because of ineffective corporate gover-
sufficient to restore the ratio to the designated reserve     nance, including the external auditors’ issuance of
ratio within 1 year. The Corporation’s challenge is to        unqualified opinions on the bank’s financial statements
maintain or exceed the designated reserve ratio, as           that briefly described but did not challenge the fair
required by statute.                                          presentation and integrity of certain transactions and
                                                              asset valuations. A major component of the $63 million
The process for setting deposit insurance premiums,
                                                              loss to the insurance fund resulted from the Chairman
which is closely related to the above discussion of the
                                                              of the Board orchestrating nominee loan schemes.
designated reserve ratio, represents yet another signifi-
                                                              These nominee loans, which had outstanding balances
cant risk to the insurance funds. Insurance premiums
                                                              of $34 million when the bank was closed, had the effect
are not generally assessed based on risk but rather the
                                                              of misleading bank regulators and CBC depositors as to
funding requirements of the insurance funds. This
                                                              the true financial condition of CBC, ultimately leading
approach has the impact of assessing premiums during
                                                              to CBC’s insolvency and closure.
economic downturns when banks are failing and likely
not in the best position to afford the premiums. Also,        With respect to the supervision of CBC, FDIC and state
numerous “free rider” institutions have benefited from        examiners periodically conducted examinations, con-
being able to sharply increase insured deposits without       sistently identifying and reporting deficiencies, and
contributions to the insurance funds commensurate             taking various formal and informal enforcement
with this increased risk. This can occur because the          actions. Further, the FDIC identified and investigated
designated reserve ratio has not been breached thereby        the complex loan schemes, which required substantial
triggering across-the-board premiums. Current deposit         effort in order to determine the flow and ultimate
insurance reform proposals include provisions for risk-       recipient of funds. However, in retrospect, more
based premiums to be assessed on a more regularly             aggressive supervisory action and additional scrutiny
scheduled basis than would occur using the existing



16
of CBC’s application to purchase MTB Bank–a New                 (4) Require field office examiners and regional
York state-chartered commercial bank–was warranted                  office staff to fully document the rationale
in light of CBC’s:                                                  behind the decision-making process related to
                                                                    assigning CRA ratings that are based on special
   ✰ risky lending practices,                                       circumstances and not on a bank’s actual CRA
                                                                    performance during the period under review.
   ✰ failure to fully resolve examination findings
     and comply with enforcement actions, and                   (5) Encourage examiners to work collaboratively
                                                                    with state examiners at resolving issues related
   ✰ questionable “satisfactory” Community
                                                                    to state banking laws, particularly when those
     Reinvestment Act (CRA) rating when the
                                                                    issues directly affect the safety and soundness
     application was pending approval.
                                                                    of an institution. This would include seeking
Finally, the FDIC implemented Prompt Corrective                     advice from counsel.
Action in accordance with the requirements of Section
                                                             DSC agreed to take action in response to our recom-
38 of the FDI Act; however, Prompt Corrective Action
                                                             mendations. DSC also provided comments regarding
was not fully effective due to improper asset valuations
                                                             other aspects of the report. DSC noted that ineffective
that had overstated CBC’s capital for several years.
                                                             corporate governance resulted in excessive risk taking,
In summary, we recommended that the Director,                disregard for laws and regulations, and questionable
Division of Supervision and Consumer Protection              asset valuations—all of which exacerbated the potential
(DSC):                                                       loss to the FDIC. However, DSC disagreed with the
                                                             OIG’s conclusion that CBC failed and resulted in a
   (1) Include a provision in enforcement actions for        material loss to the BIF because of ineffective corpo-
       certain troubled institutions, that the FDIC          rate governance. It is DSC’s position that “the proxi-
       receive prior notice of material transactions,        mate cause of CBC’s failure was insider fraud in the
       out-of-territory lending, or proposed new busi-       form of nominee loans totaling at least $34 million.” As
       ness activities and be afforded the opportunity       discussed in the report, we agree that the nominee loan
       to review and comment on same before the              schemes were a key component of the material loss to
       institution conducts such transactions or             the BIF and ultimately resulted in the bank’s closure.
       engages in such activities.                           However, in our opinion, the loan schemes were the
                                                             proximate cause of the bank’s closure, not the failure,
   (2) Revise the Case Managers Procedures Manual
                                                             which we believe is an important distinction. Assuming
       to ensure that bank management is fully
                                                             the FDIC receives nothing for the $34 million in nomi-
       assessed before approving applications for
                                                             nee loans, the magnitude of the loss indicates that
       mergers and acquisitions.
                                                             other activities allowed to occur both before and after
   (3) Regarding capital injections in conjunction           the nominee loans because of ineffective corporate
       with an acquisition, merger, or change of con-        governance significantly contributed to the demise
       trol application, require: (a) acquirers to specify   of this bank and resulting material loss.
       the source of funding in the application pack-
                                                             The Banking Commissioner for the State of
       age and provide proof the funds are available
                                                             Connecticut also provided comments to our draft
       and (b) DSC to review and validate the infor-
                                                             report, stating that our review was “reasonably pre-
       mation submitted by acquirers prior to execut-
                                                             sented” and the recommendations “entirely appropri-
       ing the transaction, and document resulting
                                                             ate.” The Commissioner also indicated that the State
       determinations.
                                                             Banking Department has proposed legislation that, if




                                                                                                                 17
enacted, would address issues raised in this report          Bank Merger Act, Bank Holding Company Act, and
pertaining to legal lending limits.                          Change in Bank Control Act.
DSC Procedures for Addressing Deviations from                OIG Issues Multiple Reports on FDIC Examiner
Business Plans by Newly Established Banks                    Assessments of Risk Areas
We issued a report on DSC’s procedures for addressing        We issued several reports this period that focused on
deviations from business plans by newly established          examiners’ assessments of specific activities that insti-
banks. The DSC Director requested this review and            tutions engage in that can pose risks to the safety and
expressed concern that managers of some newly chartered      soundness of the institutions and the insurance funds.
banks were not adhering to the business plans approved
by the FDIC during the new bank application process.         For example, our report on Examiner Assessment of
                                                             Commercial Real Estate Loans presents the results of
We concluded that the procedures used by FDIC case           our review of examiner assessment of appraisals, cash
managers and examiners for evaluating and address-           flow, and loan policies at banks with high levels of
ing new banks that have departed from initial business       commercial real estate loans. Historical analysis of the
plan projections subsequent to their application for         banking crisis of the 1980s reveals that many banks
approval from the FDIC were adequate. Examiners              that failed during that time were active participants in
were taking steps to review and assess a bank’s adher-       the commercial real estate market.
ence to its approved business plan and/or subsequent
strategic plans and budgets.                                 We concluded that opportunities existed for improve-
                                                             ment regarding examiner assessment of appraisals and
Of added importance, we found that new banks, in             cash flow. Specifically, examiners were not always
effect, could be established through various regulatory      using the lesser of acquisition cost or appraised value
and financial transactions that allow existing insured       to assess loan-to-value ratios, were not updating old
depository institutions to transfer their charters and       appraisal assumptions, and in some cases did not pro-
insurance to new owners. When a new bank is created          vide sufficient evidence that a cash flow analysis was
through the normal formation process, regulatory             performed. Moreover, we could not determine whether
approval is sought through the application process for       examiner review of loan policies was adequate in most
federal deposit insurance. However, other various            cases due to the varying degrees in the way examiners
transactions, including mergers, acquisitions, assump-       documented their work.
tions, and changes in control, are subject, by statute, to
a less comprehensive application process because a           The report contained six recommendations intended to
new application for deposit insurance is not required.       improve the DSC’s examinations of institutions with
                                                             high levels of commercial real estate loans. DSC man-
Accordingly, we made two recommendations intended            agement concurred with one recommendation but did
to enhance DSC’s regulatory oversight in the applica-        not concur with the remaining five recommendations,
tion process for mergers, acquisitions, or changes in        suggest acceptable alternative actions, or provide infor-
control and in the advance notification of changes in        mation that would convince us to revise any recom-
bank management. DSC management suggested an                 mendations. DSC considers the concerns identified in
acceptable alternative action for one recommendation         the report as OIG-perceived documentation deficien-
and concurred with the second recommendation.                cies. At issue is whether there is a correlation between
                                                             the quality of the examination procedures supported by
In January 2003, the Corporation proposed a number           evidence in the working papers and the quality of the
of regulatory burden relief initiatives for the 108th        examinations themselves. It is our position that the two
Congress. Included among those were two that are             are inseparable. We requested DSC to reconsider its
consistent with recommendations we made in our               comments in light of our evaluation of them and
report. These relate to proposed amendments to the           provide a subsequent response.


18
DSC responded that planned examiner training pro-           DSC cited plans for a process improvement review that
grams and upcoming initiatives would address the out-       will focus on workpaper documentation. DSC invited
standing recommendations. If these planned actions          the OIG’s input to that review. If the initiative addresses
address the concerns covered by our recommenda-             the concerns covered by our recommendations, we
tions, we may accept the results of this initiative as      may accept the results of this initiative as alternative
alternative actions to the recommendations.                 actions to the recommendations.

Examiner Assessment of High Loan-Growth                     Subprime Lending: We completed an audit of DSC’s
Institutions: Another audit we conducted focused on         assessment of subprime lending in the course of safety
examiner assessment of high loan-growth institutions.       and soundness examinations. We conducted this audit
High loan growth is a high-risk indicator, and the          because of concerns stemming from recent financial
FDIC’s internal studies have shown that rapid loan          institution failures involving subprime lending activi-
growth has been identified repeatedly as a precursor to     ties. Subprime lending provides borrowers with a cred-
failure. We concluded that DSC examiners’ loan review       it source that may not otherwise be available due to
process for institutions that had experienced a signifi-    concerns with their credit history or repayment capaci-
cant level of loan growth was not sufficient in identify-   ty. However, recent examinations revealed a number of
ing risk. Specifically, examiners were not always:          financial institutions that were engaged in subprime
                                                            lending activities without properly assessing or con-
   ✰ targeting new loans for sampling purposes and          trolling the risks associated with this type of lending.
     reporting on the level of new loans reviewed,          As a result, many institutions have suffered losses,
                                                            which in turn has jeopardized the overall financial
   ✰ assessing or commenting on the loan quality of
                                                            health of those institutions.
     newly originated loans, and
                                                            Our audit determined that DSC has taken reasonable
   ✰ assessing the internal loan risk rating process at
                                                            steps to ensure that institutions manage risks associated
     banks based on a methodology that incorporates
                                                            with subprime lending programs effectively.
     a review of non-adversely classified loans.
                                                            Specifically, the interagency policies and procedures
As a result, there was insufficient assurance that exam-    for examinations of subprime banks provided examiners
iners were consistently performing a comprehensive          with the necessary guidance to identify and assess the
review and analysis of newly originated loans in high       condition of subprime loan programs in insured insti-
loan-growth institutions. Accordingly, the audit report     tutions and the examiners adequately implemented this
contained six recommendations intended to improve           guidance. FDIC examiners conducted pre-examination
DSC’s regulatory oversight in the examination of high       planning that included steps to look for indications of
loan-growth institutions.                                   subprime programs and generally followed the inter-
                                                            agency subprime examination procedures involving
DSC questioned our assessments and conclusions              examinations of capital levels during onsite examina-
based on its concerns with the scope of our audit. In       tions. In addition, DSC maintains a quarterly database
addition, DSC management did not concur with these          to assist in monitoring the condition of FDIC-insured
recommendations, suggest acceptable alternative             institutions with subprime programs.
actions, or provide information that would convince us
to revise any recommendations. We requested DSC to          We did not make recommendations in our report, but
reconsider its comments in light of our evaluation of       we identified an issue that may warrant management’s
them and provide a subsequent response.                     attention. Specifically, we noted that existing guidance
                                                            may not be sufficient for ensuring that custom credit
                                                            scoring models correctly predict the creditworthiness
                                                            of borrowers. As a result, there is a potential for a lack



                                                                                                                   19
of consistency in onsite examinations of banks with           should provide written support for the examination
subprime lending programs, particularly with regard           and verification procedures performed, conclusions
to allowances for losses and capital level calculations.      reached, and narrative comments in the Report of
Also, in order for lenders to appropriately stratify the      Examination.
additional default risk and price the subprime products
accordingly, constant monitoring and testing of credit        We recommended that DSC include a request for a list
scoring models is required to ensure that projected           of affiliate transactions in the Safety and Soundness
results are in line with actual performance.                  Examination Request Package when DSC knows or has
                                                              reason to believe that a financial institution has affiliate
Transactions with Affiliates: A bank’s relationships          activities and request that the bank provide the types or
and transactions with its affiliated organizations can        categories of affiliate transactions that have occurred
significantly affect the operations and overall financial     since the previous examination and a list of transactions
condition of a financial institution. As part of the safety   with values greater than a predetermined dollar thresh-
and soundness examination of a bank, in situations            old when affiliate transaction activity is voluminous. We
where affiliated organizations are identified, DSC            also recommended that DSC inform examiners and case
examiners determine whether a bank’s transactions             managers as to the availability of certain FRB Reports as
with its affiliates are in regulatory compliance and not      additional resources for identifying affiliates and affiliate
detrimental to the safety and soundness of the financial      transactions. We further recommended that DSC ensure
institution. Material loss reviews and other reviews of       through several of its existing review programs that
several bank failures in recent years have identified         examiners follow DSC’s policies for documenting
concerns related to the failed financial institutions’        affiliate work and the examination procedures used,
relationships and transactions with their respective          documents relied upon, and analyses conducted in the
affiliates.                                                   examination of transactions with affiliates.

We conducted an evaluation to review DSC’s efforts to         DSC’s proposed actions in response to our report met
identify affiliates of FDIC-supervised institutions and       the intent of our recommendations.
examine transactions with such affiliates and reported        FDIC Examiner Use of Work Performed by
that DSC’s efforts were generally adequate. DSC exam-         Independent Public Accountants
iners relied on information requested of and provided         As discussed earlier, the work performed by
by the financial institution and, in some cases, the          Independent Public Accountants (IPA) who are
Federal Reserve Board (FRB), to identify affiliates and       engaged by FDIC-supervised financial institutions has
affiliate transactions, assess the risks associated with      elicited increased attention in light of the types of cor-
affiliates and affiliate transactions, and establish an       porate accounting scandals that have occurred in other
appropriate examination scope for affiliate activities.       business areas recently. During the reporting period,
However, DSC examiners were not always requesting a           we evaluated FDIC examiner use of the work per-
list of affiliate transactions that had occurred since the    formed by IPAs who are engaged by FDIC-supervised
prior examination or FRB reports regarding affiliate          financial institutions.
transactions and bank organizational structure.
                                                              We determined that FDIC examiners and case man-
We could not conclude on the adequacy of examination          agers made reasonable use of the work performed by
procedures applied to the financial institutions’ affiliate   IPAs by considering IPA reports, management letters,
activities for 4 of 21 financial institutions that we         and other available documentation in conjunction with
reviewed, because the examination procedures were             their safety and soundness examinations and in devis-
not documented in the examination workpapers. DSC             ing the overall supervisory strategy. FDIC examiners
policies stipulate that examination documentation             expanded their examination testing and review when


20
an IPA uncovered or reported irregularities or prob-         report problem bank information and better secure
lems in an area, and the examiners followed up on the        bank information that it maintains in Outlook folders.
institution’s corrective actions. Examiners also effec-
tively resolved differences with IPAs. In addition to the    We recommended that the Director, DSC, take actions
above, for those institutions with examination ratings       to assess report recipients’ needs and consider consoli-
of 4 or 5, indicating problem areas, examiners also          dating, eliminating, or automating certain reports gen-
reviewed the IPA’s workpapers, thoroughly document-          erated by DSC regional offices; clarify the distinction
ing their review. FDIC examiners reviewed IPA work-          between its various problem institution lists and other
papers to gain an understanding of the IPA’s scope and       reports on problem institutions; ensure that regional
results of work performed including, for example, in         offices report consistently all undercapitalized institu-
the areas of internal control, the risk of material mis-     tions and Section 38 provisions for all FDIC-insured
statement due to fraud, or asset valuation concerns.         financial institutions; and revalidate who has access to
                                                             automated information and ensure that all confidential
Our report did not contain recommendations. DSC’s            and sensitive bank data are secured.
response to our report indicated that the division
would continue to be proactive in addressing its evalu-      DSC management concurred with five of our six
ations of external audit activity through its own efforts    recommendations and stated that it had taken steps to
and through interagency initiatives.                         address the other recommendation. We consider all
                                                             recommendations to be resolved.
The Division of Supervision and Consumer
Protection’s Reporting on Issues Related to                  Effectiveness of Resolution and
Problem Banks
The FDIC’s Board of Directors needs reliable and
                                                             Receivership Activities
timely information related to the safety and soundness       One of the FDIC’s most important corporate responsi-
of FDIC-insured institutions in order to carry out its       bilities is planning and efficiently handling the fran-
Board responsibilities to the Corporation. We under-         chise marketing of failing FDIC-insured institutions
took an audit to determine the extent and type of            and providing prompt, responsive, and efficient resolu-
information that DSC reported to the FDIC Board of           tion of failed financial institutions. These activities
Directors on problem banks. During this audit, we            maintain confidence and stability in our financial
reviewed the reporting process including, but not limited    system. The Division of Resolutions and Receiverships
to, the type, sources, frequency, consistency, and distri-   (DRR) has outlined primary goals for the following
bution of information reported on problem banks,             four business lines and each is accompanied by signifi-
undercapitalized institutions, and Section 38 actions.       cant challenges.
We concluded that DSC issues a significant number               (1) Deposit Insurance. DRR must provide cus-
and variety of reports and maintains folders in                     tomers of failed financial institutions with timely
Microsoft Outlook to keep the FDIC Board of Directors               access to their insured funds and financial
informed of material supervisory, policy, and adminis-              services. A significant challenge in this area is
trative issues. These reports and folders include infor-            to ensure that FDIC deposit insurance claims
mation on financial institutions that DSC classifies as             and payment processes are prepared to handle
“problem banks” and provide narrative information on                large institution failures.
the institutions’ financial condition. DSC also provides
information on other banks that present heightened              (2) Resolutions. As DRR seeks to resolve failed
risk to the deposit insurance funds. However, we                    institutions in the least costly manner, its
reported that DSC could more efficiently and effectively            challenges include improving the efficiency of




                                                                                                                    21
        contingency planning for institution failures
        and improving internal FDIC communication               OIG Work Addresses Continuing
        and coordination as well as communication               Interest in Privacy
        with the other primary federal regulators to            We issued a report on the FDIC’s control over
        ensure timely access to records and optimal             the use and protection of social security num-
        resolution strategies.                                  bers (SSN). We conducted our work in response
                                                                to congressional interest regarding the wide-
     (3) Receivership Management, Accounting,                   spread sharing of personal information and
         Internal Review, and Customer Service. DRR’s           occurrences of identity theft. The FDIC OIG
         goal is to manage receiverships to maximize            along with other Offices of Inspector General
         net return towards an orderly and timely termi-        performed reviews on behalf of the President’s
         nation and provide customers of failed institu-        Council on Integrity and Efficiency. We limited
         tions and the public with timely and responsive        our review to the FDIC Division of Resolutions
         information. Related challenges include                and Receiverships’ (DRR) use and protection of
         improving the efficiency of the receivership ter-      SSNs during the marketing of failing financial
         mination process, improving claims processing,         institutions, marketing of assets from failed
         continual assessment of recovery strategies,           financial institutions, and bid process.
         improving investigative activities, and charging       We concluded that the FDIC’s control over the
         receiverships for services performed under             use and protection of SSNs was not fully ade-
         the Receivership Management Program                    quate. Specifically, SSN and other personal
         (i.e., service costing).                               information was made readily available over
                                                                several Web sites used in marketing and selling
     (4) Employees. DRR employees need to possess the           the remaining assets from failed financial insti-
         resources, skills, and tools to perform the mis-       tutions to parties external to the FDIC that were
         sion of the Division. One related challenge is to      not subject to a pre-approval process or access
         ensure that Division personnel have sufficient         control. Moreover, FDIC contractors were given
         legal support for decision making.                     access to SSN fields so they could carry out sys-
                                                                tem maintenance responsibilities on several
Evaluation of the FDIC’s Corporate                              internal FDIC systems, and their access to and
Readiness Plan                                                  use of such data was not adequately controlled
The Corporate Readiness Plan (CRP) is DRR’s contin-             and monitored.
gency plan for responding to a series of institution fail-
ures exceeding DRR’s capacity to address with its own           Our report contained four recommendations
resources. We evaluated the reasonableness of the CRP           intended to improve DRR’s handling of SSNs and
during the reporting period. We focused on key Plan             other sensitive data. DRR agreed to take action
elements and underlying assumptions. We concluded               in response to all four recommendations in our
                                                                report.
that the CRP is reasonable and provides sufficient flexi-
bility for the FDIC to handle a relatively wide range of
institution failures without causing significant disrup-     The Division of Resolutions and Receiverships’
tion to other aspects of the Corporation’s mission.          Controls Over Data Input to the Service
                                                             Costing System
                                                             As referenced previously, the FDIC uses the Service
                                                             Costing System to bill FDIC receiverships for services
                                                             performed by the Corporation on behalf of the
                                                             receiverships. In a report issued during the reporting
                                                             period, we presented the results of our assessment of
                                                             whether adequate controls existed to ensure the


22
accuracy, timeliness, and completeness of DRR data        We made a total of seven recommendations that were
used by the Service Costing System. We limited our        intended to enhance the accuracy, timeliness, and
review to the controls related to data submissions from   completeness of the data used in the Service Costing
DRR systems to the Service Costing System that are        System. The Directors of DRR and DOF concurred with
used by the Division of Finance (DOF) to calculate        the recommendations.
receivership billings.
                                                          Management and Security of
We concluded that DRR controls to ensure the timeli-      Information Technology Resources
ness of data provided to the Service Costing System
were adequate; however, controls to ensure the            Information technology (IT) continues to play an
accuracy and completeness of data used by the Service     increasingly greater role in every aspect of the FDIC
Costing System could be improved. Specifically,           mission. As corporate employees carry out the FDIC’s
                                                          principal business lines of insuring deposits, examining
   ✰ DRR had not instituted sufficient controls to ade-   and supervising financial institutions, and managing
     quately validate and verify data in systems that     receiverships, they rely on information and correspon-
     update the Service Costing System. As a result,      ding technology as an essential resource. Information
     the FDIC did not have adequate assurance that        and analysis on banking, financial services, and the
     workload data from DRR systems were valid            economy form the basis for the development of public
     and, therefore, that expenses were accurately        policies and promote public understanding and confi-
     charged to receiverships under the Service           dence in the nation’s financial system. IT is a critical
     Costing System.                                      resource that must be safeguarded.
   ✰ DRR’s procedures for ensuring accurate and           Accomplishing IT goals efficiently and effectively
     complete data processing and reporting to the        requires sound IT planning and investment control
     Service Costing System were not adequate. As a       processes. The Corporation’s 2003 IT budget is approx-
     result, approximately $1.01 million in additional    imately $171.9 million. The Corporation must constant-
     corporate expenses were not properly billed to       ly evaluate technological advances to ensure that its
     receiverships during 2002. A portion of these        operations continue to be efficient and cost-effective
     expenses would not likely be recovered by the        and that it is properly positioned to carry out its mis-
     FDIC from receivership dividend payments.            sion. While doing so, the Corporation must continue to
                                                          respond to the impact of laws and regulations on its
The FDIC has implemented the Service Costing System
                                                          operations. Management of IT resources and IT securi-
as a means to comply with applicable laws and regula-
                                                          ty have been the focus of several laws, such as the
tions related to appropriately billing expenses to
                                                          Paperwork Reduction Act, the Government Information
receiverships. However, the FDIC had not achieved full
                                                          Security Reform Act (GISRA), and most recently, the
compliance because procedures for ensuring complete
                                                          Federal Information Security Management Act of 2002
data processing and reporting to the Service Costing
                                                          (FISMA). Similar to the requirements of GISRA, under
System were not adequate. In its dual role as insurer
                                                          FISMA, each agency is required to report on the ade-
and receiver, the Corporation should avoid even the
                                                          quacy and effectiveness of information security poli-
appearance of an inequitable distribution of expenses
                                                          cies, procedures, and practices and compliance with
between the Corporation and receiverships. The data
                                                          information security requirements of FISMA.
completeness control deficiencies we identified limited
the Corporation’s ability to avoid such an appearance
and ensure compliance with applicable laws and
regulations.




                                                                                                               23
The Corporation has worked to implement many                 We determined that the FDIC was continuing efforts to
sound information system security controls but has not       improve its overall IT capital planning process, but
yet fully integrated these into an entity-wide program.      more progress was needed. The FDIC had not fully
Additionally, efforts to identify sensitive data, plan for   established or implemented the three management
and fund essential security measures, incorporate            controls associated with the CPICP related to security,
security requirements in FDIC contracts, enhance soft-       i.e., an enterprise architecture that specifically address-
ware configuration management, and measure the               es security requirements, consideration of information
overall performance of the information security pro-         security in capital IT investment decisions, and system
gram need continued attention. Frequently, security          life cycle security management. Although the
improvements at the FDIC were the result of a reaction       Corporation was progressing, until these key manage-
to specific audit and review findings, rather than the       ment controls are fully established and implemented,
result of a comprehensive program that provided con-         corporate level decision makers cannot be assured that
tinuous and proactive identification, correction, and        security is appropriately integrated in FDIC systems
prevention of security problems. As reiterated in the        commensurate with the level of risk associated with
Inspector General’s opening statement to this semian-        those systems. Furthermore, while this report focused
nual report, the Corporation is working to appoint a         on the integration of information security in the FDIC’s
permanent Chief Information Officer (vacant since            CPICP, the overall importance of establishing and fully
September 2001) to strengthen accountability and             implementing the enterprise architecture cannot be
authority in the FDIC’s information security program         overlooked. An enterprise architecture must be in
and to ensure that other key positions in the Division       place before investment decisions can be made in a
of Information Resources Management are filled               structured way.
permanently.
                                                             The Acting Chief Information Officer, CFO, and Chief
The FDIC’s progress in addressing the security weak-         Operating Officer provided a written response to our
nesses identified in our 2001 Security Act evaluation        report indicating their concurrence with all six of the
report were offset by the emergence of new informa-          recommendations in the report. They subsequently
tion security weaknesses identified during our 2002          provided specific actions and milestones for the six
evaluation, as well as the FDIC’s internal evaluation        recommendations. We are continuing to monitor the
completed on January 10, 2003. Thus, management              Corporation’s implementation of the corrective actions
and security of IT resources continue to warrant             in response to this review and will also re-address the
management attention. For its part, the OIG is in the        issues identified in our upcoming FISMA work.
process of reviewing these issues as part of our
                                                             Phase II Network Operations Vulnerability
FISMA-related work for 2003.                                 Assessment
Integration of Information Security into the                 PricewaterhouseCoopers Consulting (PwC), an inde-
Capital Planning and Investment Control Process              pendent professional services firm, was engaged by the
The OIG and Office of Internal Control Management            OIG to perform a vulnerability assessment of the
conducted a joint review to evaluate the FDIC’s              FDIC’s network operations. The FDIC has invested
progress in integrating information security into the        heavily in defending its network perimeter by imple-
capital planning and investment control process              menting preventive and detective controls. The
(CPICP) since the OIG’s first GISRA report was issued        implementation of firewalls, zoning of Internet facing
in September 2001. That report identified CPICP as an        servers, and monitoring of scans against these servers
area that may warrant reporting as an individual mate-       by the FDIC contributes to a more secure external
rial weakness. Our objective was to evaluate the extent      perimeter. PwC’s testing confirmed that these controls
to which the FDIC integrates security into that process.     were operating effectively. PwC’s external testing did
                                                             identify one high-risk and one moderate vulnerability,



24
in response to which the Corporation took action.            oriented performance measures, linking performance
Except for the two noted instances, PwC reported that        goals and budgetary resources, implementing process-
the FDIC’s network perimeter defenses were effective.        es to verify and validate reported performance data,
                                                             and addressing crosscutting issues and programs that
PwC identified other areas for improvement and               affect other federal financial institution regulatory
recommended a number of actions to strengthen the            agencies.
FDIC’s internal network controls. The Corporation
committed to take action to address the concerns             OIG Reviews FDIC 2003 Annual Performance
raised by PwC.                                               Plan and 2002 Annual Report
                                                             During this reporting period, the OIG reviewed and pro-
Assessment of Corporate Performance                          vided advisory comments to management on the FDIC’s
                                                             draft 2003 Annual Performance Plan and 2002 Annual
The Government Performance and Results Act (Results          Report. The purpose of our reviews was to provide sug-
Act) of 1993 was enacted to improve the efficiency,          gestions for enhancing the Corporation’s performance
effectiveness, and accountability of federal programs by     plan and annual report based on our knowledge and
establishing a system for setting goals, measuring per-      work related to the Results Act. In addition, we reviewed
formance, and reporting on accomplishments. The              the plan and report to determine whether they were in
Results Act requires most federal agencies, including        compliance with the Results Act and related Office of
the FDIC, to prepare a strategic plan that broadly           Management and Budget guidance. We also provided an
defines each agency’s mission, vision, and strategic         OIG “Comfort Letter” on the Management Controls
goals and objectives; an annual performance plan that        Section of the Corporation’s Annual Report.
translates the vision and goals of the strategic plan into
measurable annual goals; and an annual performance              ✰ Advisory Comments on 2003 Annual
report that compares actual results against planned               Performance Plan. The OIG acknowledged the
goals.                                                            Corporation’s continuing efforts to improve the
                                                                  plan each year and offered several suggestions
The Corporation’s strategic plan and annual perform-              for management’s consideration. These included
ance plan lay out the agency’s mission and vision and             (1) considering adding specific annual perform-
articulate goals and objectives for the FDIC’s three              ance goals for the most significant corporate
major program areas of Insurance, Supervision, and                resource management initiatives, especially
Receivership Management. The plans focus on four                  those related to human capital and the other pri-
strategic goals that define desired outcomes identified           orities in the President’s Management Agenda;
for each program area: (1) Insured Depositors Are                 (2) considering including specific performance
Protected from Loss Without Recourse to Taxpayer                  goals to address the most significant manage-
Funding, (2) FDIC-Supervised Institutions Are Safe and            ment and performance challenges facing the
Sound, (3) Consumers’ Rights Are Protected and FDIC-              Corporation, as identified by the OIG, including
Supervised Institutions Invest in Their Communities,              FDIC information security and the quality of
and (4) Recovery to Creditors of Receiverships Is                 bank financial reporting and auditing; (3) con-
Achieved. Through its annual performance report, the              sidering approaches to better integrate the sepa-
FDIC is accountable for reporting actual performance              rate Corporate Performance Objectives process
and achieving these strategic goals.                              into the Results Act annual goal-setting process
                                                                  so that there is a clearer linkage between the two
The Corporation has made significant progress in
                                                                  processes; and (4) considering an additional
implementing the Results Act and needs to continue to
                                                                  receivership termination performance measure
address the challenges of developing more outcome-
                                                                  for pre-2000 receiverships.




                                                                                                                  25
     ✰ Advisory Comments on 2002 Annual Report.              During 2002, the Corporation established a desk offi-
       The OIG recognized and commended the                  cers program to enhance its management and monitor-
       Corporation’s substantial effort and accomplish-      ing of the Internal Control and Risk Management
       ment in preparing the FDIC’s first consolidated       Program. As part of the desk officers program, individ-
       annual report, which integrates the Chief             ual analysts are designated as points of contact for both
       Financial Officers Act Report, the Program            advising certain divisions or offices on program-related
       Performance Report, and the traditional Annual        issues and for monitoring program compliance. Each
       Report. The Corporation met its target to com-        division and office now consults one analyst having
       plete its report by March 31, 2003, thus achiev-      detailed knowledge of its operations and its implemen-
       ing the goal of issuing the report within 90 days     tation of the Internal Control and Risk Management
       of the reporting period ending December 31,           Program.
       2002. This initiative represents a significant step
       in improved corporate accountability and reporting.   As noted in our advisory comments on the Annual
                                                             Report and our Comfort Letter, the appendix of the
As discussed in the Adequacy of Corporate Governance         FDIC Consolidated 2002 Annual Report includes a
in Insured Depository Institutions write-up of this sec-     brief description of the OIG’s views of the most signifi-
tion, we reviewed the Corporation’s draft consolidated       cant management and performance challenges facing
report and suggested that the report include a discus-       the FDIC. Including OIG views is a positive step in full
sion of the risks associated with bank corporate gover-      accountability and is consistent with the Reports
nance (including the quality of bank financial report-       Consolidation Act of 2000. The annual report notes that
ing and auditing) and the challenges of Sarbanes-Oxley       management is committed to addressing these issues
Act implementation. In consideration of our suggestion,      identified by the OIG.
the Corporation included a brief discussion of corpo-
rate governance (see page 11).                               The OIG will continue to help ensure that the FDIC’s
                                                             Results Act-related efforts fully conform to the spirit
     ✰ Inspector General Comfort Letter on                   and intent of the Act. We plan to continue to work with
       Management Control Section of 2002 Annual             the Corporation to improve the FDIC’s performance
       Report. We reviewed FDIC’s Internal Control           measurement and reporting. In this process, we will
       and Risk Management Program, including its            give particular attention to various methodologies for
       annual evaluation and reporting process, and          assessing performance, including the implications and
       concluded that the process provides a reason-         relevance of the President’s Management Agenda and
       able basis for management’s positive conclusion       the Office of Management and Budget’s Program
       on internal controls. Additionally, we concluded      Assessment Rating Tool. The OIG will also continue to
       that the process was consistent with the require-     monitor and review legislation proposed in the
       ments of the Federal Managers’ Financial              Congress to amend the Results Act and will actively
       Integrity Act as mandated by the Chief Financial      participate to refine appropriate OIG Results Act roles,
       Officers Act. We identified no material or signifi-   responsibilities, and activities through the President’s
       cant weaknesses in the Corporation’s 2002             Council on Integrity and Efficiency and the interagency
       Internal Control and Risk Management Program.         groups it sponsors.
       Our report acknowledged the Corporation’s con-
       tinuing positive actions with respect to manage-
       ment of the Internal Control and Risk
       Management Program.




26
Transition to a New Financial                              We also completed an audit of the FDIC’s NFE project
Environment                                                control framework. This audit was the first in a series
                                                           of reviews that we intend to conduct at critical mile-
On September 30, 2002, the FDIC executed a multi-          stones or decision points during the development and
year contract to replace its core financial systems and    implementation of the NFE. We concluded that the
applications with a commercial-off-the-shelf software      FDIC had established key controls for ensuring the
package. The FDIC Board had previously approved            delivery of a quality system that meets corporate
contract expenditure authority for the New Financial       requirements and user needs in a timely and cost-
Environment (NFE) project totaling approximately           effective manner. However, we identified opportunities
$28.8 million. At the time the Board case was approved,    for the FDIC to better integrate key NFE project con-
the FDIC estimated the total life cycle cost of NFE,       trols, strengthen project communications, and improve
including FDIC staff time, to be approximately             risk response planning on the project.
$62.5 million over 8 years. NFE is a major corporate
initiative to enhance the FDIC’s ability to meet current   We recommended that the DOF and the NFE project
and future financial management and information            team: develop and approve a charter for the NFE
needs.                                                     Steering Committee that defines its responsibilities,
                                                           membership, and operating guidelines; document an
Although NFE offers the FDIC significant benefits, it      integrated control framework that explains, at a mini-
also presents significant challenges. These challenges     mum, the roles, relationships, and reporting structures
will test the Corporation’s ability to (1) maintain        among key project players on the NFE project; prompt-
unqualified opinions on the FDIC’s annual financial        ly complete and approve a formal communications
statements through the system implementation and           management plan; consult with the NFE risk manager
associated business process reengineering; (2) manage      and the contractor involved to establish clear measures
contractor resources, schedules, and costs; and            for determining when project risks classified as signifi-
(3) coordinate with planned and ongoing system devel-      cant occur or are about to occur; and develop contin-
opment projects related to NFE.                            gency plans, as appropriate, for risk factors categorized
                                                           as significant before they become a reality. The
Overall, the FDIC needs to ensure that the NFE Project     Director, DOF agreed to take action in response to all
team successfully implements modern and reliable           recommendations.
systems to improve financial business processes and
support current and future financial management and        Organizational Leadership and
information needs, while controlling costs for the new     Management of Human Capital
environment to the maximum extent possible.
                                                           The FDIC has been in a downsizing mode for the past
Audits of the New Financial Environment Project
                                                           10 years as the workload from the banking and thrift
Two reviews that we completed during the reporting
period related to the NFE project. The first was an        crises of the late l980s and 1990s has been accom-
agreed-upon procedures to review and comment on            plished. Over the past months, a number of division
certain procedures and documentation related to the        mergers and reorganizations took place and the
solicitation for a commercial off-the-shelf software       Corporation concluded its 2002 buyout/retirement
solution and associated system development life            incentive programs. These most recent incentive pro-
cycle services (i.e., a “new financial environment”)       grams achieved a reduction of 699 staff and $80 million
to replace the Corporation’s current financial             projected savings in future operating costs. Additional
management system. We provided our results to the          downsizing efforts are ongoing. In total, over the past
Division of Administration for its use.                    10+ years, the workforce (combined from the FDIC
                                                           and the Resolution Trust Corporation) has fallen from




                                                                                                                27
approximately 23,000 in 1992 to approximately 5,400 as       practicable in order to afford the FDIC the balanced
of March 31, 2003.                                           governance and sustained leadership essential to the
                                                             agency’s continued success. Again in the Inspector
By July 2003, the Corporation hopes to substantially         General’s opening statement to this semiannual report,
complete required downsizing, identify an appropriate        concern over the Board vacancy is expressed.
skills mix, and correct any existing skills imbalances.
To do so, the Corporation continues to carry out other       Cost Containment and Procurement
features of its comprehensive program such as solicita-      Integrity
tions of interest, reassignments, retraining, outplace-
ment assistance, and possible reductions-in-force. The       As steward for the Bank Insurance Fund and Savings
Corporation has also predicted that almost 20 percent        Association Insurance Fund, the FDIC seeks ways to
of FDIC employees will be eligible to retire within the      limit the use of those funds. As such, the Corporation
next several years. As the Corporation adjusts to a          must continue to identify and implement measures to
smaller workforce, it must continue to ensure the            contain and reduce costs, either through more careful
readiness of its staff to carry out the corporate mission.   spending or assessing and making changes in business
                                                             processes to increase efficiency. Many of the efforts
The Corporation must also work to fill key vacancies in      described above as part of other management and per-
a timely manner, engage in careful succession plan-          formance challenges (e.g., New Financial Environment,
ning, and continue to conserve and replenish the insti-      service costing, corporate downsizing) attest to the
tutional knowledge and expertise that has guided the         Corporation’s ongoing efforts to do so.
organization over the past years. A need for additional
outsourcing may arise and hiring and retaining new           A key challenge to containing costs relates to the con-
talent will be important. Hiring and retention policies      tracting area. To assist the Corporation in accomplish-
that are fair and inclusive must remain a significant        ing its mission, contractors provide services in such
component of the corporate diversity plan. Designing,        areas as information technology, legal matters, loan
implementing, and maintaining effective human capi-          servicing, and asset management. To achieve success
tal strategies are critical priorities and must be the       in this area, the FDIC must ensure that its acquisition
focus of centralized, sustained corporate attention.         framework–that is, its policies, procedures, and inter-
                                                             nal controls–is marked by sound planning; consistent
A significant element of this performance and manage-        use of competition; fairness; well-structured contracts
ment challenge relates to organizational leadership at       designed to produce cost-effective, quality performance
the FDIC Board of Directors level, specifically with         from contractors; and vigilant contract management
respect to the current make-up of the Board. The Board       and oversight.
is a body whose strong leadership is vital to the suc-
cess of the agency and to the banking and financial          The Corporation has taken a number of steps to
services industry. The Board is comprised of five direc-     strengthen internal control and effective oversight.
tors, including the FDIC Chairman, two other FDIC            However, our work in this area continues to show that
directors, the Comptroller of the Currency, and the          further improvements are necessary to reduce risks
Director of the Office of Thrift Supervision. In order to    such as the consideration of contractor security in
ensure that the balance between various interests            acquisition planning, incorporation of information
implicit in the Board’s structure is preserved, the Board    security requirements in FDIC contracts, and oversight
should operate at full strength. However, the Board has      of contractor security practices. Other risks include
been operating with an FDIC Director vacancy since           corporate receipt of billings for such items as unautho-
September 1998. Accordingly, we have urged that              rized subcontractors, unallowable subcontractor
vacancies on the Board be filled as promptly as              markups, incorrect timesheets, unreasonable project




28
management hours billed, conflicts of interest, and        internal control over its procurement credit card
unauthorized labor categories. The combination of          program was not fully effective. In line with the U.S.
increased reliance on contractor support and continuing    General Accounting Office’s (GAO) standards for inter-
reductions in the FDIC workforce presents a consider-      nal control, the FDIC took action to foster an environ-
able risk to the effectiveness of contractor oversight     ment for proper use of procurement cards by establish-
activities. Additionally, large-scale procurements, such   ing and communicating formal policies, procedures,
as Virginia Square II (a $111 million construction         and approval processes to reduce the risk of improper
project to house FDIC staff for the most part now          use of the card. However, we determined that FDIC
working in leased space in the District of Columbia)       employees were not always fully complying with estab-
and the New Financial Environment, necessitate             lished policies, procedures, and control activities, and
continued emphasis on contractor oversight activities.     in some cases the policies and procedures needed rein-
                                                           forcement, modification, or clarification. It is important
The Corporation’s Procurement Credit Card
Program                                                    to note that individual deficiencies were not material;
We conducted a review of the FDIC’s procurement            however, collectively, they represented systemic
credit card program during the reporting period, largely   weaknesses that increased the risk of misuse.
in response to congressional interest on the part of       In some cases, procurement credit cards and numbers
Senator Charles Grassley. We found that the FDIC’s         were not properly safeguarded, employees were able to
                                                           circumvent purchase limits, some purchases lacked
  OIG Responds to Congressional                            supporting documentation, and employees at times
  Inquiry from Senator Mikulski                            incurred sales taxes although the FDIC Acquisition
  During the reporting period the OIG responded            Policy Manual specifically instructs cardholders to
  to a letter from Senator Barbara A. Mikulski             attempt to avoid paying these charges. We found that,
  dated July 26, 2002. In that letter, Senator             in the absence of clear policies and procedures, at
  Mikulski requested that the OIG review allega-           times extravagant meals were purchased with procure-
  tions made by FDIC employees that the FDIC               ment credit cards, as well as other purchases that may
  had presented incorrect information to the               not qualify as “official business.” Finally, FDIC policies
  Congress regarding its plans to outsource main-          did not restrict alcoholic beverage purchases with the
  frame production control and computer opera-             cards.
  tions (Data Center) positions. In response, we
  undertook a review to determine whether the              With respect to monitoring and overseeing the effective-
  information that the FDIC provided to the                ness of the procurement card program, the FDIC did
  Congress was adequately supported. To perform            not have effective procedures for canceling the cards for
  our analysis, we grouped the statements that the         employees departing the FDIC, and in several cases,
  FDIC had made to the Congress into four areas:
                                                           former employees continued to have credit card privi-
  (1) the FDIC’s downsizing and 2002 buyout pro-
                                                           leges even after their departure from the Corporation.
  gram, (2) the cost benefit analysis performed to
  determine the cost effectiveness of outsourcing,         In addition, the FDIC did not perform routine analyses
  (3) the independent arbitrator’s decision, and           to determine whether cardholders were using the pro-
  (4) the contractor selection. We then examined           curement credit card and had a business need for the
  the FDIC’s support for each of these areas. We           card. Some employees in our sample were issued cards
  communicated our results in a letter to Senator          but rarely used them, increasing the risk of misuse or
  Mikulski, concluding that the information that           undetected loss of the procurement credit card.
  the FDIC had provided to the Congress was                Procurement cardholders in some cases had spending
  adequately supported.                                    limits that exceeded their normal purchase activity, and
                                                           limits were not reviewed to ensure they reflected the




                                                                                                                 29
extent of spending that users were likely to incur. As a     some of the assumptions and the rationale used to
result, the FDIC procurement credit card program was         arrive at the amounts included in the cost analysis were
more vulnerable to fraud and misuse.                         not consistently supported or clearly explained. The
                                                             sensitivity analysis included in the CBA compensated
Finally, the Corporation had not conducted a formal          for the risks associated with this weakness.
risk analysis, another suggested component of GAO’s
standards for internal control, to identify specific types   We suggested that the FDIC consider ensuring that
of vulnerabilities and steps to address them.                assumptions made in preparing a CBA are fully docu-
                                                             mented to facilitate the post implementation review of
Our report contained eight recommendations intended          benefits and costs, and requiring each division impact-
to improve the Division of Administration’s controls         ed by alternatives in a CBA review to concur or non-
over the procurement credit card program. Actions            concur with its contents to establish accountability.
are currently ongoing or planned to address all of our       Any non-concurrence from an impacted party should
concerns.                                                    also be discussed in the CBA. The CFO and Chief
Review of FFIEC Call Report Modernization Cost               Operating Officer agreed to take action in response to
Benefit Analysis                                             these suggestions.
At the request of several Corporation senior managers,       OIG Issues Report on FDIC Travel, Relocation,
the OIG completed a review of the cost benefit analysis      and State Income Tax Withholding Policies and
(CBA) and assumptions supporting the draft request to        Procedures
the FDIC’s Board of Directors for funding the Federal        We completed an audit of selected FDIC travel, reloca-
Financial Institutions Examination Council (FFIEC)           tion, and state income tax withholding policies and
Call Report Processing Central Data Repository, dated        procedures and issued our final report during the
January 23, 2003. The Task Force on Reports and Call         reporting period. We conducted the review in response
Modernization Steering Committee requested approval          to allegations made by a former FDIC employee. The
of $44 million for a 10-year, multi-phased contract to       objective of this audit was to determine whether the
be awarded on behalf of the FDIC, Federal Reserve            FDIC had adequately designed and implemented poli-
Board, and Office of the Comptroller of the Currency to      cies and procedures in specific travel, relocation, and
build and operate a shared facility for managing data        state withholding tax areas where allegations had been
collected under the federal bank regulatory requirements.    made.
The Institution Data Management project team pre-            We concluded that the FDIC had designed or imple-
pared the CBA on behalf of the Call Modernization            mented policies and procedures for most of the opera-
Steering Committee of the FFIEC Task Force on                tional areas addressed in the allegations. However,
Reports. The CBA compared two alternatives on the            additional actions were necessary to enhance certain
basis of cost, benefit, risk, and sensitivity.               policies and procedures and remedy prior errors
                                                             in the following areas: (1) employee spouses’ travel,
We concluded that the methodology used in comparing
                                                             (2) employee personal weekend return trips home
the alternatives was generally consistent with FDIC and
                                                             while on extended official travel, (3) determination of
Office of Management and Budget guidance for the
                                                             employee residency for state withholding tax purposes,
preparation of a CBA. The Institution Data Management
                                                             and (4) certain transactions subject to Title 5 salary
project team obtained and analyzed cost data from sev-
                                                             cap limitations.
eral divisions, analyzed the benefits and risks associat-
ed with the alternatives, and projected the impact that      We made seven recommendations to address the issues
the cost benefit assumptions could have on the recom-        we identified. The Director of DOF and the Division of
mended alternative in the sensitivity analysis. However,     Administration (DOA) provided a joint written



30
response to the draft report. DOF and DOA concurred
with our findings, and corrective actions have been      OIG Efforts Support GAO Financial
taken or are planned in response.                        Statement Audit Work
                                                         OIG staff assisted the U.S. General Accounting
The OIG’s Post- and Preaward Contract Reviews
                                                         Office (GAO) by conducting work on two specific
With respect to procurement integrity-related reports,
                                                         audit areas related to the FDIC’s financial state-
we issued four post-award contract audits and two        ment audit: the Receivables from Bank/Thrift
preaward reviews during the reporting period. The        Resolutions and Receivership Receipts. To meet
objectives of the post-award audits are to determine     accelerated reporting deadlines established by
whether amounts charged to FDIC contracts are allow-     the Corporation, the OIG committed additional
able, allocable, and reasonable. Preaward reviews        resources to determine whether the FDIC had
focus on the bids received from potential contractors.   implemented effective internal controls over
We can also review the contract award process and        (1) financial reporting of receivables from failed
contractor controls, as needed.                          insured depository institutions and (2) recoveries
                                                         from the liquidation of failed insured depository
We reported a total of $1.22 million in monetary bene-   institution assets. We provided our results to the
fits as a result of the post-award audits. Management    GAO for its consideration in evaluating the
agreed with $20,500 of that amount, disagreed with       Corporation’s internal control over financial
$106,896, and management decisions were pending          reporting and compliance with applicable laws
for the remainder of the total amount identified as      and regulations.
monetary benefits.                                       Additionally, the OIG provided information tech-
                                                         nology support to the GAO as it conducted the
As for the preaward reviews, one related to the New
                                                         overall financial statement audit. Throughout the
Financial Environment referenced previously, and the     year, we provided statistical expertise and con-
other to the Virginia Square Phase II Project general    ducted cyclic sample selections from corporate
contractor.                                              payroll, accounts payable, accounts receivable,
                                                         and allocation activities. We also conducted data
   Agreed Upon Procedures for the                        integrity evaluations, program code analysis, and
   Government-wide Financial                             file security reviews of corporate systems.
   Statements                                            Finally, we assisted the GAO in its wrap-up of
   We completed agreed-upon procedures to assist
                                                         the audit fieldwork by conducting automated
   the Department of the Treasury and the GAO in
                                                         year-end reconciliations of payroll, accounts
   evaluating the FDIC’s assertion that the
                                                         payable, and travel. We also automated the
   Corporation reconciled intragovernmental activi-
                                                         account grouping process to facilitate consolida-
   ty and balances as of and for the fiscal year
                                                         tion and verification of the financial accounts
   ended September 30, 2002 with its trading part-
                                                         into the insurance funds’ balance and income
   ners (i.e., other federal government entities with
                                                         statements.
   whom the FDIC conducts business activities,
   such as the U.S. Treasury). We also applied the
   agreed-upon procedures to evaluate the FDIC’s
   assertion that it compared amounts in the gov-
   ernment-wide standard general ledger to the
   general ledger balances in its financial manage-
   ment system. We found no material differences
   between amounts in the Corporation’s financial
   records and those contained in either the trading
   partners’ balances or the government-wide
   standard general ledger.


                                                                                                             31
     Update
     Recovery of Abandoned Assets and
     Unclaimed Deposits
     The FDIC recently honored the Division of Resolutions and Receiverships’ Bank
     Account Control Unit (BACU) with the Chairman’s Excellence Award for its efforts
     related to the recovery of abandoned assets and unclaimed deposits. The OIG joins
     the FDIC in its recognition and believes BACU’s successful recovery of abandoned
     assets and implementation of steps to reconcile and recover unclaimed deposits are
     directly related to prior OIG reports. In August 1999, the OIG issued a report to the
     FDIC entitled Audit of Abandoned Assets Held by States’ Unclaimed Property Agencies
     (Audit Report No. A99-038) in which the OIG reported on unclaimed property agen-
     cies that were holding millions of dollars in assets belonging to the FDIC and its
     receiverships. The OIG recommended that the FDIC take appropriate actions to
     remove assets held by states’ unclaimed property agencies from its finders fee
     program that the Division of Resolutions and Receiverships operated and make the
     Division of Finance responsible for recovering those assets. In addition, the OIG
     shared its methodologies for identifying unclaimed assets in the state unclaimed
     property databases with FDIC representatives. As a result, as of May 2001, BACU
     had recovered about $5.3 million dollars and avoided paying finders fees to private
     individuals and firms for those assets. Further, in recovering those assets, the BACU
     had established contacts at state unclaimed property agencies that later helped
     facilitate monitoring FDIC and state-reported unclaimed deposits.

     As a followup to our audit on abandoned assets, the OIG issued a report entitled The
     FDIC’s Identification of and Accounting for Unclaimed Deposits Transferred to State
     Unclaimed Property Agencies (Audit Report No. 01-024). The unclaimed deposits
     amendments (UDA) to the Federal Deposit Insurance Act contain procedures for
     owners of unclaimed deposits to file deposit claims against failed financial institu-
     tions. UDA provides requirements that affect the manner and time period within
     which owners of unclaimed deposits may obtain funds from the FDIC, institutions
     that acquired failed financial institutions, and state unclaimed property agencies. We
     reported on differences between FDIC and state unclaimed property agencies’ totals
     for accounts related to the UDA, the need to reconcile those differences and monitor
     those accounts before the 10-year periods during which states should try to locate
     owners of those deposits began to expire, and the need for an automated system to
     account for unclaimed deposits transferred to state unclaimed property agencies.

     Since issuance of our report, BACU has taken the lead in converting thousands of
     accounts related to the UDA from seven different data bases to a new system of
     record–the Dividend Processing System–and implemented outreach processes with
     other entities, such as the National Association of State Treasurers and Unclaimed
     Property Administrators to help enhance a smooth recovery of funds escheated and
     potentially due back to the FDIC. BACU’s preliminary estimates of potential recover-
     ies of unclaimed deposits are between $10 million and $20 million from accounts
     escheated under the UDA process.

     In summary, formed in 1996, BACU started the recovery of abandoned funds in
     November 1999 and, since that time, has recovered a total of about $9.5 million, as of
     December 31, 2002. During 2002, over 4,000 claims were filed with holding entities
     and 3,500 recoveries were realized, resulting in $3.5 million in recoveries in 2002
     alone. Those claims were based on extensive research using innovative techniques
     and various sources.

     BACU’s efforts are deserving of recognition, and the OIG endorses continued atten-
     tion to recovering unclaimed assets and deposits for the FDIC.




32
Investigations
                                                                                                       the FDIC in recovery of its losses. Another considera-
                         Investigative Statistics                                                      tion in dedicating resources to these cases is the need
                   October 1, 2002 – March 31, 2003
                                                                                                       to pursue appropriate criminal penalties not only to
 Judicial Actions:                                                                                     punish the offender but to deter others from participat-
    Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13           ing in similar crimes.
    Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
                                                                                                       Joint Efforts
 OIG Investigations Resulted in:
                                                                                                       The OIG works closely with U.S. Attorney’s Offices
    Fines of . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .$2,000
                                                                                                       throughout the country in attempting to bring to justice
    Restitution of . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .$25,796,385
                                                                                                       individuals who have defrauded the FDIC. The prosec-
    Other Monetary Recoveries of . . . . . . . . . . . . . . . . . . . . . .$398,500                   utive skills and outstanding direction provided by
    Total . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .$26,196,885     Assistant United States Attorneys with whom we work
 Cases Referred to the Department of
                                                                                                       are critical to our success. The results we are reporting
   Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13           for the last 6 months reflect the efforts of U.S. Attorney’s
 Referrals to FDIC Management . . . . . . . . . . . . . . . . . . . . . . . . . . . .3                 Offices in the District of Massachusetts, the Southern
                                                                                                       District of Iowa, the Southern District of West Virginia,
 OIG Cases Conducted Jointly
 with Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53           the Northern District of Alabama, the Northern District
                                                                                                       of Texas, the Western District of Texas, the Central
The Office of Investigations (OI) is responsible for car-                                              District of California, the Northern District of Georgia,
rying out the investigative mission of the OIG. Staffed                                                the District of South Carolina, the District of Minnesota,
with agents in Washington, D.C., Atlanta, Dallas, and                                                  the District of Colorado, the Eastern District of
Chicago, OI conducts investigations of alleged criminal                                                Pennsylvania, the Northern District of Mississippi, the
or otherwise prohibited activities impacting the FDIC                                                  Northern District of New Jersey, the Middle District of
and its programs. As is the case with most OIG offices,                                                Florida, the Northern District of California, the District
OI agents exercise full law enforcement powers as                                                      of Connecticut, the Northern District of Illinois, and the
special deputy marshals, under a blanket deputation                                                    Eastern District of Michigan.
agreement with the Department of Justice. This will
soon change, as a result of the November 2002 passage                                                  Support and cooperation among other law enforcement
of the Homeland Security Act, which provides statutory                                                 agencies is also a key ingredient for success in the
law enforcement authority for certain OIGs, including                                                  investigative community. We frequently “partner” with
the FDIC OIG. This statutory authority will take effect                                                the Federal Bureau of Investigation (FBI), the Internal
at the end of May 2003. In the interim, our office has                                                 Revenue Service (IRS), Secret Service, and other law
been working with the other affected OIGs to develop a                                                 enforcement agencies in conducting investigations of
collective memorandum of understanding establishing                                                    joint interest.
an external review process to ensure that proper safe-
                                                                                                       Results
guards and management procedures are implemented
in each affected OIG.                                                                                  Over the last 6 months OI opened 15 new cases and
                                                                                                       closed 26 cases, leaving 102 cases underway at the end
OI’s main focus is on investigating criminal activity
                                                                                                       of the period. Our work during the period led to indict-
that may harm or threaten to harm the operations or
                                                                                                       ments or criminal charges against 13 individuals and
the integrity of the FDIC and its programs. In pursuing
                                                                                                       convictions of 14 defendants. Criminal charges
these cases our goal, in part, is to bring a halt to the
                                                                                                       remained pending against 14 individuals as of the
fraudulent conduct under investigation, protect the
                                                                                                       end of the reporting period. Fines, restitution, and
FDIC and other victims from further harm, and assist




                                                                                                                                                               33
recoveries stemming from our cases totaled almost                  received a total of approximately $1,685,000 as a result of
$26,196,885. The following are highlights of some of               the fraud scheme, the jury decided in separate delibera-
the results from our investigative activity over the last          tions that they only netted $178,500 in illicit proceeds.
6 months.
                                                                   The investigation of suspected fraud involving
Fraud Arising at or Impacting Financial                            Community Bank is being conducted by agents from
Institutions                                                       the FDIC OIG, FBI, and IRS. Prosecution of the case is
Owners of Construction Company Convicted on                        being handled by trial attorneys from the Department
Charges of Defrauding Community Bank of                            of Justice, Washington, D.C.
Blountsville, Alabama
On October 30, 2002, a jury in the U.S. District Court             Former Chief Executive Officer of the Failed Bank
for the Northern District of Alabama returned guilty               of Falkner Pleads Guilty and Is Sentenced to Felony
verdicts on all three counts of an indictment charging             Charges of Making False Entries to Deceive FDIC
the two owners and their company, Morgan City                      Examiners and Money Laundering
Construction, with bank fraud and conspiracy to                    On February 6, 2003, the former Chief Executive
commit bank fraud.                                                 Officer of the Bank of Falkner Mississippi, was sen-
                                                                   tenced in U.S. District Court for the Northern District
                                                                   of Mississippi to serve 2 years in prison to be followed
                                                                   by 5 years’ probation and ordered to pay the FDIC
                                                                   restitution of $15,284,348.

                                                                   The former Chief Executive Officer’s sentencing fol-
                                                                   lows his prior plea of guilty in October 2002 to two
                                                                   counts of making false entries in the books and records
                                                                   of the bank with the “intent to deceive the FDIC and
  Two individuals fraudulently submitted invoices for construct-
  ing a bank branch office and never completed the project.        its agents and examiners” and one count of money
                                                                   laundering. One of the counts was based on a scheme
At trial, the government presented evidence showing                through which he issued $4,824,660 in nominee loans
that between December 1997 and July 2000 the couple                to certain bank customers who were above their legal
used Morgan City Construction, which they owned and                lending limits. Another count involved a scheme where
operated, to submit invoices for construction work pur-            he caused a bank employee to record advances of
portedly performed for Community Bank, an FDIC-                    $3,642,686 on existing loans and to misapply those
regulated bank located in Blountsville, Alabama.                   advances to other customers’ accounts to conceal over-
Prosecutors alleged during the trial that some of the              drafts from the FDIC examiners. The money launder-
invoices were for work that was never performed and                ing charge to which he pled guilty was based on his
other invoices were for personal construction work per-            helping a bank customer disguise the nature, location,
formed for the bank’s chief executive officer, his rela-           source, and ownership of $1,709,497 the customer had
tives, and the bank’s vice president of construction and           on deposit with the bank.
maintenance. Evidence was also presented to show that
the records of the bank were falsified to reflect that the         The prosecution of the former Chief Executive Officer
work was completed at the bank’s facilities.                       was handled by the U.S. Attorney’s Office for the
                                                                   Northern District of Mississippi and was based on an
The charges against the defendants included a forfeiture           investigation conducted jointly by the FDIC OIG and
claim seeking any property derived from the fraud                  the FBI that was initiated to examine the circum-
scheme. Although the government alleged the couple                 stances leading to the bank’s failure in September 2000.




34
Former Officer of the Institution for Savings Is            defendants had previously been indicted on similar
Sentenced for Misapplying Funds                             charges in January 2003.
On October 29, 2002, a former officer of the Institution
for Savings (IFS) of Newburyport, Massachusetts, was        The former executive vice president of the bank and
sentenced in the U.S. District Court for the District of    his brother-in-law were each 50 percent owners of the
Massachusetts for misapplying the funds of the institu-     bank. As the executive vice president, he had extensive
tion. She was sentenced to 15 months’ imprisonment to       authority, served as a loan officer, and had unrestricted
be followed by 3 years of supervised release. She was       access to the bank’s computer system. When entering
also ordered to pay restitution in the amount of            his guilty plea, he admitted that between July 2000 and
$141,156.                                                   March 2002, he misapplied funds belonging to the
                                                            bank by granting over $800,000 in loans to nominee
As described in our last semiannual report, in July         borrowers to disguise the true beneficiary of the loan
2002, the U.S. District Court for the District of           proceeds. He also admitted that he made false entries
Massachusetts accepted a plea of guilty by the former       in the books and records of the bank to conceal the
officer of the IFS to 59 counts of misapplying a total of   loans, altered supporting loan documents, directed the
approximately $162,000 of funds between February            manipulation of records pertaining to delinquent loans,
1997 and March 2002 by negotiating her personal             and engaged in the falsification of vehicle inventory
checks at IFS and then removing them from the bundle        reports.
of items that IFS was sending to the Federal Reserve
Bank for processing. Later, when the missing amounts        The former head teller admitted to aiding and abetting
were reported back to IFS, she would make entries in        the executive vice president by making false entries in
the books and records of IFS to conceal them.               the records of the bank. Specifically, she admitted to
                                                            making delinquent loan accounts current and to rou-
The former officer used at least $40,000 of the funds       tinely falsifying inventory reports that were submitted
she took from IFS as a down payment when she pur-           to obtain loans from the bank by a company of which
chased a home. At the sentencing she was also ordered       she was a part owner.
to forfeit the proceeds from the sale of the home, which
totaled approximately $21,000.                              Jasper State Bank is a $23 million bank located in rural
                                                            Jasper, Minnesota, which has a population of less than
The investigation of this case was conducted jointly by     600. The bank incurred total losses of approximately
agents of the FDIC OIG and the FBI, and the prosecu-        $2.7 million as a result of the loans originated by the
tion was handled by the United States Attorney’s Office     defendants, well in excess of the $2.4 million in the
for the District of Massachusetts.                          bank’s capital and reserves, causing it to become insol-
                                                            vent. The bank was saved from failure by the injection
Former Officials of Jasper State Bank Plead Guilty          of $3 million in capital from two investors.
to Charges of Bank Fraud, Misapplication of Funds,
and False Statements                                        The investigation that led to the prosecutions was con-
In March 2003, two former officials of Jasper State         ducted jointly by agents from the FDIC OIG and the
Bank pled guilty in the U.S. District Court for the         FBI. The case is being prosecuted by the U.S. Attorney’s
District of Minnesota to criminal charges relating to a     Office for the District of Minnesota.
bank fraud scheme. Specifically, the former director
and executive vice president of the bank pled guilty to     Owner of Company Providing Automated Teller
bank fraud, misapplication of funds, and making false       Machine Services Convicted and Sentenced in
entries in the bank’s records, and the former head          Fraud Scheme that Cost the FDIC $9 Million
teller pled guilty to one count of bank fraud. Both         On January 14, 2003, the owner of several Texas




                                                                                                                 35
companies, including an armored car company and a            failed, the FDIC had to charge off $267,000 in principal
company that owns and operates automated teller              loss that was outstanding on the loans.
machines (ATMs) was sentenced in U.S. District Court,
District of Colorado, Denver, Colorado, to a total of        This case is being investigated jointly by the FDIC OIG
70 months’ imprisonment, to be followed by 5 years           and the IRS Criminal Investigations Division and is
of supervised release. He was also ordered to pay a          being prosecuted by the U.S. Attorney’s Office for the
special assessment of $4,300 to the court and restitu-       District of Minnesota.
tion to the FDIC in the amount of $9,284,457.
                                                             Vehicles Purchased with Proceeds of Suspected
Following a 2-week trial in July 2002, the defendant         Check-Kiting Scheme Seized and Sold
was found guilty on all 46 counts of an indictment           As a part of an ongoing investigation that the OIG is
charging him with bank fraud, wire fraud, and money          conducting jointly with the FBI, three vehicles that
laundering for implementing a scheme to defraud the          were purchased with proceeds from a suspected check-
failed BestBank, Boulder, Colorado, and Pueblo Bank          kiting scheme at the former Universal Federal Savings
and Trust Company, Pueblo, Colorado, which acquired          Bank (UFSB), Chicago, Illinois, were seized during the
the insured deposits of the failed institution from the      reporting period and subsequently sold, with the pro-
FDIC. The scheme ultimately cost the FDIC over               ceeds going to the FDIC. The FDIC Division of
$9 million.                                                  Resolutions and Receiverships is also assisting in the
                                                             investigation.
Prior to this sentencing, the defendant’s motion for
acquittal on three of the counts was granted based on                            A 2003 Mercedes Benz SL500 and
the judge’s finding that there was a lack of intent on his                       a 2002 Lexus LX470 were seized
part sufficient for the jury to have found him guilty of                         from a former customer of the
money laundering.                                                                bank, and a 2002 BMW 325xi that
                                                                                 was purchased by the same cus-
The OIG’s investigation, conducted jointly with the                              tomer was seized from the former
FBI, established that the defendant used his companies                           Chief Operations Officer at UFSB.
to divert bank funds designated to stock ATMs to                                 The FDIC closed UFSB in June
accounts that he controlled. He ultimately used the                              2002 as a result of the depletion of
diverted funds for business and related expenses rather                          the institution’s funds that were
than returning them to the bank.                                                 diverted as a part of the suspected
                                                                                 check-kiting scheme. The vehicles
Bookkeeper Indicted for Bank Fraud and Money                                     were subsequently sold and the
Laundering                                                   proceeds, which totaled $164,500, were returned to the
On February 11, 2003, a bookkeeper was indicted by a         FDIC as partial reimbursement of the costs to the
federal grand jury in the District of Minnesota on           insurance fund attributable to the failure of UFSB.
charges of bank fraud and money laundering. The
indictment alleges that the defendant and others             Management and Sale of FDIC-Owned Assets
unnamed in the indictment executed a scheme to               Contractors Plead Guilty to Indictment Charging
defraud the former Town & Country Bank of Almelund           Them with Conspiracy and Submitting False
(Minnesota). Specifically, the defendant, who worked         Statements to the FDIC
for a customer of the bank, is alleged to have received      On February 11, 2003, two principals of an FDIC con-
$41,000 for signing 10 false loans that were obtained        tractor pled guilty in the U.S. District Court for the
from the bank between March 1997 and June 1999, and          Middle District of Florida. One of the contractors pled
had a total face value of $371,000. When the bank            guilty to one count of a four-count indictment that had




36
been returned by a federal grand jury in April 2001            entities with which he had undisclosed agreements to
charging her with conspiracy and making false state-           collect additional payments and fees. To hide his con-
ments to the FDIC. On February 14, 2003, her business          flicting interests in the sale of assets, he arranged with
associate, who was also charged in the same indict-            his wife and one of his associates to form two compa-
ment, pled guilty to one count of the indictment.              nies for the sole purpose of purchasing properties from
                                                               the portfolio of properties he was responsible for
As we previously reported, the indictment against the          managing for the RTC/FDIC. Properties sold to these
two individuals charged them with submitting three             companies were re-sold shortly thereafter for a higher
false invoices and bogus support documentation to the          amount. In addition, the defendant also collected addi-
FDIC on behalf of Golden Ocala Golf Course Partners.           tional fees and payments during the sale of the assets.
These documents purported that Golden Ocala Golf
Course Partners, a contractor hired by the FDIC, had           Through his self-dealings, the defendant received
paid a nonexistent company $240,000 for environmen-            approximately $700,000 in kickbacks and caused the
tal remediation work that was actually performed by            FDIC and asset management company losses of
other companies at a total cost of $51,376. Based on           approximately $1.2 million. In her capacity as the des-
this false documentation, the FDIC reimbursed the              ignated owner of one of the companies, the defendant’s
partnership $150,000 for expenses.                             wife has settled a civil suit filed against her by the asset
                                                               management company for $541,000, which represents
The investigation and prosecution of these two individ-        the financial gain realized by that company as a result
uals was initiated by the Department of Justice and the        of self-dealings. The asset management company, in
OIG based upon allegations contained in a civil com-           turn, remitted these settlement funds to the FDIC. The
plaint filed by a private citizen under the False Claims       asset management company has also received an
Act. In September 2000, one of the partners entered            “Arbitration Award” against the asset specialist for
into an agreement whereby he agreed to pay the
government $300,000 to settle the civil complaint.                 ✰ actual damages of $631,256,

Former Employee of Contract Asset Manager Pleads                   ✰ punitive damages of $150,000,
Guilty to Theft of Government Funds
On December 5, 2002, a former employee of a company                ✰ arbitration costs/expenses of $12,900,
hired by the Resolution Trust Corporation (RTC) to
                                                                   ✰ prejudgment interest on actual damages of
manage assets was sentenced in the U.S. District Court
                                                                     $111,121, and
for the Western District of Texas to 12 months of con-
finement and was ordered to pay restitution in the                 ✰ post-judgment interest of 10 percent per annum
amount of $257,593. The sentencing follows his prior                 on the entire award.
plea of guilty in September 2002 to a one-count infor-
mation charging him with theft of funds belonging to           This investigation was conducted jointly with the FBI,
the FDIC.                                                      and the criminal prosecution is being pursued by the
                                                               U.S. Attorney’s Office for the Western District of Texas.
As we reported in our last semiannual report, the FDIC
                                                               Restitution and Other Debt Owed the FDIC
OIG initiated an investigation based on a referral from
                                                               Debtor Indicted for Providing False Financial
the Division of Resolutions and Receiverships indicat-
                                                               Information
ing that the asset manager may have been engaged in
                                                               On January 30, 2003, a debtor was indicted by a federal
self-dealing in the sale of at least one asset. The investi-
                                                               grand jury in the Eastern District of Pennsylvania on
gation disclosed that the defendant used his position
                                                               four counts of making false statements to the former
with the contractor to negotiate and sell FDIC assets to
                                                               RTC.




                                                                                                                       37
According to the indictment, from July 1990 through                                                   With respect to the con-
March 1993, the debtor was negotiating with the for-                                                  cealment of assets, the
mer RTC to resolve his outstanding obligations as a                                                   indictment alleges that
result of loans he guaranteed with Gold Coast Federal                                                 between June 1999 and
Savings Bank, Plantation, Florida (Gold Coast), and                                                   August 2002, the defen-
Atlantic Financial Savings, FA, Bala Cynwyd,                                                          dant conducted four
Pennsylvania (Atlantic Financial). The defendant was a                                                real estate transactions
personal guarantor on 11 loans from Gold Coast with a                                                 so that all the financial
book value of approximately $6.67 million and on             An FDIC debtor attempted to conceal this and land records showed
                                                             property from the FDIC by transferring
4 loans from Atlantic Financial with a book value of         ownership to his girlfriend.             his girlfriend as the sole
approximately $3.93 million. The loans became the            owner. In fact, he arranged for the purchase and
responsibility of the former RTC as a result of the          finance of the properties, used his funds to improve the
failure of those institutions.                               properties, and shared in the profits upon sale of two of
                                                             the properties. His girlfriend is accused of using her
The indictment alleges that in February 1993, the            bank accounts to assist him to conceal his involvement
debtor knowingly made false statements to the RTC in         in these transactions.
that he falsely reported on a financial statement and in
a financial affidavit submitted to the former RTC that       One of the false statement charges alleges that he sub-
he did not own and control securities of value when, in      mitted false information to the Financial Litigation Unit
fact, he owned and controlled approximately $157,311         of the U.S. Attorney’s Office relating to a $100,000 gov-
in Jefferson Bank stock. The indictment also charged         ernment bond he received pursuant to a divorce settle-
him with falsely reporting in the financial affidavit that   ment. The other three false statement counts pertain to
he received nothing from the sale of a Wilmington,           information he submitted to the U.S. Probation Office
Delaware, apartment complex, when the debtor had             indicating that his solely owned businesses had not
actually received at least $125,000 from the sale.           conducted any transactions for years. The indictment
According to the indictment, he concealed his owner-         alleges that, in reality, those companies were doing
ship of the Jefferson Bank stock and the proceeds from       substantial business and that substantial sums of
the sale of the apartment complex by transferring them       money had passed through the checking accounts of
to a trust account purportedly established for the           the corporations.
benefit of his son.
                                                             FDIC Debtor Arrested on Charges of Wire Fraud
FDIC Debtor and His Girlfriend Indicted for                  An FDIC debtor, who is believed to maintain a residence
Concealing Assets from the FDIC and Making False             in Alamos, Mexico, was arrested in La Quinta, California,
Statements to the Government                                 on October 22, 2002, by agents of the FDIC OIG and FBI
On October 31, 2002, a federal grand jury in Hartford,       on wire fraud charges related to his promised develop-
Connecticut, indicted two defendants in connection           ment of Country Club of the Desert in La Quinta.
with an alleged scheme to conceal assets to avoid pay-
ment of $2.7 million in restitution. One of the defen-       According to an affidavit filed in support of an arrest
dants owes the restitution to the FDIC as a result of his    warrant, the debtor began doing business as Equity
prior conviction in 1996 on bank fraud charges. He is        Funding Corporation (EFC) in September 1996. He
charged in the subject indictment with one count of          controlled the money and made business decisions
concealing assets and four counts of making false            related to EFC as well as numerous limited liability
statements. His girlfriend is charged with aiding and        companies and limited partnerships related to EFC.
assisting him in the concealment of assets.                  After raising capital and assembling land under several
                                                             limited partnerships, he established Country Club




38
Properties, LP (CCP) for the purpose of developing a          approximate $500,000, and transferred the loans to an
54-hole golf course and residential development called        intermediary, who subsequently transferred them back
Country Club of the Desert. Investors who eventually          to the original debtors. As a part of the transaction, the
gave the individual nearly $20 million were told that         defendant certified that he was not representing the
all money invested would go toward the development            two original debtors.
of Country Club of the Desert. While he did develop a
golf course, he diverted a substantial portion of             Purportedly, the businessmen hoped that by cleaning
investor money from CCP, through EFC, to his own              up their financial problems related to loans, they
accounts for his personal use and benefit.                    would be more likely to receive approval from the
                                                              Michigan Gaming Control Board to become 40-percent
From approximately mid-1997 until November 2001,              stakeholders in a Michigan casino. According to a news
when the investors had him replaced, the debtor               article regarding the alleged conspiracy, the two busi-
allegedly diverted approximately $3.4 million from            nessmen and their wives were ultimately forced to sell
CCP for his personal use and spent it on two planes, a        their stake in the casino in August 2000 because the
yacht, and various residential and investment proper-         gaming board found problems in their financial back-
ties in California and Mexico. The defendant was              ground and would not license the casino if they were
charged with wire fraud, a felony offense which carries       involved. The board never disclosed the problem. The
a maximum possible sentence of 5 years in prison and          couples sold their interest for $275 million.
a $250,000 fine.
                                                              As a part of his plea agreement with the government,
This case is the result of a joint investigation by the       the defendant is cooperating in the ongoing investiga-
FBI and the FDIC OIG.                                         tion. The investigation was conducted jointly by the
                                                              agents of the FDIC OIG, the IRS, and the FBI.
Strawbuyer in Debt Fraud Scheme Pleads Guilty to              Prosecution of the case is being pursued by the U.S.
Conspiracy to Defraud the FDIC                                Attorney’s Office for the Eastern District of Michigan.
On February 6, 2003, a financial facilitator pled guilty in
U.S. District Court for the Eastern District of Michigan      Misrepresentations Regarding FDIC Insurance
to a one-count criminal information charging him with         or Affiliation
conspiring to defraud the FDIC. The defendant is a for-       Securities Dealer Pleads Guilty to Selling
mer employee of the RTC who opened his own compa-             Unregistered Securities, Fraud, and Theft
ny, EJM & Associates Inc., after leaving the government.      On October 31, 2002, a securities dealer pled guilty in
                                                              the Superior Court of California, Riverside County, to
According to the information to which he pled guilty,         an amended complaint charging him with selling
the defendant conspired with two Michigan business-           unregistered securities, fraud, and theft.
men who defaulted on two loans in March 1993 total-
ing $4.2 million that they had obtained from First                                                 As reported in our last
Federal Savings Bank and Trust of Pontiac, Michigan.                                               semiannual report, the sub-
When First Federal Savings Bank failed, the loans were                                             ject was arrested on similar
taken over by the RTC and later the FDIC, and the                                                  charges by agents of the
FDIC decided to sell them in a public auction. As                                                  FDIC OIG and the Riverside
alleged in the information, the businessmen wired a                                                County (California) District
total of approximately $2.5 million to the defendant in                                            Attorney’s Office on October
April 1998 to buy the two delinquent loans, which by                                               7, 2002. The subject, doing
then had a $5.6 million payoff value. The defendant                                                business as Jeffco Financial
bought the loans for $2 million, kept the remaining           Sample advertisement misrepresent-   Services, was licensed to
                                                              ing FDIC insurance coverage for      sell securities through San
                                                              Jeffco CDs.




                                                                                                                           39
Clemente Services, Inc., another company involved in          Sentencing
the sale of brokered certificates of deposit. Relying on      Witness Is Sentenced for Theft of Government
information they were provided regarding FDIC insur-          Funds
ance coverage, investment yields, fees, and commis-           On October 17, 2002, a witness who had been inter-
sions, investors purchased approximately 1,241                viewed as a part of an OIG investigation into alleged
certificates of deposit totaling $67,390,735 from Jeffco      concealment of assets was sentenced in the U.S.
Financial Services. The felony complaint to which the         District Court for the District of Massachusetts to theft
subject pled guilty lists the names of 59 individuals or      of government funds. The witness had been previously
entities to whom he offered or sold unregistered secu-        indicted and pled guilty for receiving approximately
rities which are described in the complaint as “invest-       $45,000 in Social Security disability benefits to which
ment contracts in the form of interests in custodialized      he was not entitled.
certificates of deposit.” He also pled guilty to making
misrepresentations regarding “annual average yield,”          As previously reported, the witness was contacted as a
theft of property exceeding $2.5 million in value, and        part of an OIG investigation because of his affiliation
participating in a pattern of felony conduct involving        with a suspect who was allegedly concealing assets to
the taking of more than $500,000.                             avoid paying $5 million in restitution he owed the
                                                              FDIC resulting from his conviction on bank fraud
The OIG investigation was initiated based on a referral       charges in 1991. Because of apparent false information
by the Division of Supervision and Consumer Protection        provided by the witness in an affidavit, additional
of information obtained during the examination of a           investigation was conducted disclosing that he had
bank indicating irregularities in deposits the bank had       been continuing to receive Social Security disability
placed with San Clemente Services. The prosecution of         benefits to which he was not entitled.
the case is being handled by the Riverside County
District Attorney’s Office.                                   Former Bank Board Members of Hartford-Carlisle
                                                              Savings Bank Sentenced for Bank Fraud
Employee Activities                                           On March 27, 2003, two brothers, both of whom were
Former FDIC Employee Pleads Guilty and Is                     former board members of the now defunct Hartford-
Sentenced for Theft                                           Carlisle Savings Bank (HCSB), Carlisle, Iowa, were
On February 28, 2003, a former Print Shop Supervisor          sentenced in U.S. District Court for the Southern
at the FDIC’s Virginia Square facility was sentenced in       District of Iowa. One of the brothers was sentenced to
the State Court for the Commonwealth of Virginia to           5 days’ incarceration, 5 years’ probation, and ordered
12 months’ imprisonment, all suspended, and                   to pay restitution to the FDIC in the amount of
12 months’ supervisory probation.                             $201,441. The other brother was sentenced to 4 days’
                                                              incarceration, 5 years’ probation, and ordered to pay
In December 2002, the defendant entered a guilty plea
                                                              restitution to the FDIC in the amount of $226,614.
to violating Virginia’s felony statute prohibiting theft of
cable services. In February 2002, the OIG received            In September 2002, the two brothers entered guilty
information from the Division of Administration               pleas to bank fraud for making or causing to be made
regarding the possible sale of cable television converter     false statements to the Federal Reserve Bank in con-
boxes by the former FDIC employee. The OIG and                nection with an application to acquire the stock of
Arlington County Police worked with a confidential            HCSB. HCSB was an FDIC-regulated institution that
informant to contact the former employee for the              was closed on January 14, 2000, by the Iowa Division
purpose of purchasing cable boxes. Based on the joint         of Banking. Subsequently, the FDIC OIG and the FBI
investigation, the former employee was arrested and           conducted a joint investigation regarding suspected
charged with possession of stolen property.                   illegal activities that led to HCSB’s closure. The U.S.




40
Attorney’s Office for the Southern District of Iowa has       boat, sports utility vehicles, a tractor, and various other
handled prosecution of this case.                             types of vehicles and farm equipment. She was also
                                                              convicted and sentenced for being in possession of 17
In addition to the prosecutions of the two brothers, the      handguns formerly belonging to the former senior
investigation has also resulted in a guilty plea by a         executive vice president and COO’s family.
third brother, who was the former president of HCSB,
to four counts of making false entries in the records of      Other
HCSB and four counts of making false statements. He           Man Who Posed as “FDIC Inspector” Is Sentenced
is currently awaiting sentencing on those charges.            for Fraudulent Use of Bank Routing and Account
                                                              Numbers
Woman Sentenced to Over 14 Years in Prison for                On January 29, 2003, a man who had posed as an
Theft of Keystone-Related Assets                              “inspector” with the FDIC was sentenced in the U.S.
On February 18, 2003, a woman was sentenced in the            District Court for the Northern District of Texas to
U.S. District Court for the Southern District of West         5 years’ probation and 90 consecutive days of home
Virginia to 14 years and 7 months in prison for viola-        confinement with electronic monitoring. The sentenc-
tions of federal law arising from a scheme to obtain          ing was based on his prior plea agreement with the
property and other assets owned by the former senior          United States Attorney’s Office whereby he pled guilty
executive vice president and chief operating officer          to one count of fraudulent use of an access device.
(COO) of the First National Bank of Keystone (West
Virginia). The former senior executive vice president         The OIG investigation that resulted in the prosecution of
and COO is currently in prison serving sentences in           the defendant was initiated based upon a referral from a
excess of 27 years as a result of her convictions for         case manager in the former Division of Supervision who
obstruction of an examination of the bank, bank fraud,        reported that he had received two phone calls from busi-
money laundering, embezzlement, mail fraud, and               nesses located at Preston Forest Village shopping center.
conspiracy. She has also been ordered to pay in excess        Both callers said that a man representing himself as an
of $818 million in restitution. As a part of the prosecu-     “inspector” with the FDIC had asked to look at their
tion of the cases against the former senior executive         credit card machines and merchant account statements.
vice president and COO, an injunction was obtained by         The investigation disclosed the individual was a man
the government to protect the value of assets that might      who was employed at the time by a company that sells
be used to satisfy any judgement obtained by the FDIC         credit card processing services and payment systems to
against her.                                                  small businesses. Upon learning of his misrepresenting
                                                              himself as an FDIC inspector, the company terminated
The woman sentenced more recently, previously a               his employment.
convicted felon, was once a prison inmate with the for-
mer senior executive vice president and COO. Upon             Further OIG investigation of his related activities dis-
her release from prison, she participated in a scheme         closed that the defendant had been employed as a col-
to fraudulently obtain some of the assets that had been       lection representative by The Associates National Bank,
frozen by the injunction and resell them to individuals       Irving, Texas, and, as such, had access to the bank
in four states, collecting in excess of $170,000. As a part   routing and account numbers of the bank’s credit card
of the scheme, she falsified a document that contained        clients. In February 2001, he opened an account at
a facsimile of the signature of a United States District      Chase Manhattan Bank, Irving, Texas. He then falsely
Court Judge, which she used to obtain possession of           made 10 checks totaling approximately $7,062 using
some of the property. Included among the assets she           the bank account numbers of clients of The Associates
illegally obtained were firearms, classic automobiles,        National Bank and deposited the checks into his
Harley-Davidson motorcycles, a pontoon boat, a ski            account at Chase Manhattan Bank.




                                                                                                                     41
                  OIG Submits Proposal to House Financial
                Services Committee to Enhance Enforcement
                 Authority for Misrepresentations Regarding
                               FDIC Insurance
     FDIC OIG investigations have        The FDIC currently has no
     recently identified multiple        direct enforcement authority
     schemes to defraud depositors       over these misrepresentations.
     by offering them misleading         The FDIC may, of course, gen-
     rates of return on deposits.        erally address misconduct
     These abuses are effected           occurring in state chartered
     through the misuse of the           banks where the FDIC is the
     FDIC’s name, logo, abbrevia-        primary federal regulator, but
     tion, or other indicators sug-      the abuses described above
     gesting that products are fully     generally were perpetrated out-
     insured deposits. Such misrep-      side of that system. We have
     resentations induce the targets     proposed legislation to strength-
     of schemes to invest on the         en the FDIC’s enforcement
     strength of FDIC insurance          authority to curtail these abuses
     while misleading them as to the     by granting the FDIC the
     true nature of the investment       authority to impose civil mone-
     products being offered. These       tary penalties of up to $1 million
     depositors, who are often           per day on any person who
     elderly and dependent on            falsely represents the nature of
     insured savings, have lost mil-     the product offered or the FDIC
     lions of dollars in the schemes.    insurance coverage available.
     Depositors may be particularly      The proposal can be accom-
     attracted to these misrepresented   plished by amending the
     investments in our current          Federal Deposit Insurance Act
     economy when interest paid on       to insert a new subparagraph
     insured deposits is historically    outlining the enforcement
     low and uninsured investments       authority for such abuses.
     can put an investor’s principal
     at substantial risk. Further, we    The OIG submitted this
     are concerned that abuses of        proposed legislation to
     this nature may erode public        Representative Michael G.
     confidence in federal deposit       Oxley, Chairman, Committee on
     insurance. Our semiannual           Financial Services, U.S. House
     reports to the Congress have        of Representatives, on March 4,
     provided information on cases       2003. As of April 10, 2003, the
     we have successfully investigated   proposal had been passed by
     involving these types of misrep-    the House Financial Services
     resentations, including one case    Committee, Subcommittee on
     of $9.1 million worth of certifi-   Financial Institutions and
     cates of deposit misrepresented     Consumer Affairs, and was
     to about 90 investors, most of      scheduled for mark-up by the
     whom were elderly.                  House Financial Services
                                         Committee at a time to be
                                         determined.




42
OIG                Organization
The OIG has now nearly completed its downsizing and        our 2003 Performance Plan, covering the period
reorganization efforts and is streamlined, stabilized,     October 1, 2002 through September 30, 2003. This plan
and well positioned to help the Corporation address the    represents the first full year of conversion from a cal-
major challenges it faces. As we reported in our last      endar year to the federal fiscal year ending September
semiannual report, the OIG dramatically downsized          30. The change to a typical government fiscal year will
and reorganized. During this period it completed its       enable our performance planning to be better integrated
reorganization, combining the Office of Management         with our appropriation budgeting and our semiannual
and Policy and Office of Policy Analysis and               reporting to the Congress as prescribed in the
Congressional Relations to create an Office of             Inspector General Act.
Management and Congressional Relations. This office
provides business support for the OIG, including finan-    Our performance plan includes an updated strategic
cial resources, human resources, and information           framework with improved linkages to the FDIC
technology support, and coordinates OIG policy devel-      Strategic Plan, OIG Human Capital Strategic Plan,
opment, policy analyses, and congressional relations.      Office of Audits’ Assignment Plan, and the OIG-
The OIG also established the position of Senior            identified Management and Performance Challenges
Communications Manager in the Immediate Office of          facing the FDIC. The updated performance plan
the Inspector General.                                     reflects the OIG’s emphasis on adding value to the
                                                           Corporation through our core mission activities of
As discussed earlier in this report, having identified     audits, evaluations, and investigations; improving com-
the most significant Management and Performance            munications with our stakeholders; aligning human
Challenges currently facing the FDIC and having            resources to support the OIG mission; and managing
communicated those to the Corporation, the OIG’s           our resources effectively.
main work is focused on addressing them. We continue
to pursue audits, evaluations, investigations, and other
reviews that address these challenges.

Strategic Planning and Reporting
During the reporting period, and as also discussed in
the Management and Performance Challenges section
of this semiannual report, we acknowledged the
                                                                                  Lien Nguyen is working in the
Corporation’s substantial effort and accomplishment in                            OIG’s Information Assurance
preparing its first consolidated annual report, which                             audit group as part of the
integrates the Chief Financial Officers Act Report, the                           Scholarship for Service program.
Government Performance and Results Act Performance
Report, and the Annual Report. We believe this initia-     Continued Focus on Human Capital
tive represents a significant step in improved accounta-
bility and reporting.                                      During this reporting period the OIG turned to the
                                                           operational and human capital-related challenges that
The OIG has also continued to work to improve the          inevitably resulted from the recent dramatic reduction
quality of our goals, objectives, and performance meas-    in our workforce. As reported in our last semiannual
ures by making strategic changes that align our plan-      report, the OIG issued a Human Capital Strategic Plan
ning reporting requirements more closely with our          to align and integrate our human resource policies and
budget process and reporting requirements of the           practices with the OIG mission, which is also a new
Inspector General Act. During this period, we issued       strategic goal in our 2003 Performance Plan. The




                                                                                                                 43
Human Capital Strategic Plan features four objectives




                                                           "
designed to increase the value of our people and the
performance capacity of the OIG and sustain a high-
performance organization. The objectives relate to
(1) workforce analysis, (2) competency investments,
(3) leadership development, and (4) sustaining a
high-performance organization.

Of particular note during this period, the OIG initiated
two key efforts under our Human Capital Strategic
Plan, identification of key staff competencies needed to
perform our work and development of a business
knowledge inventory system. These two efforts form
the underpinnings for other parts of our plan that




      "
relate to making human capital investments in train-
ing, professional development, and recruitment. The
identified core competencies and associated behaviors
will be used to revise performance criteria consistent
with those competencies and identify areas where
development or training might be necessary. The other
ongoing key project, The Business Knowledge Inventory
System, will ultimately enable the OIG to create a data-
base of the collective business knowledge of all OIG
employees and determine where our office may have
gaps between the knowledge we need to perform our
current and future audit, evaluation, and investigation
work and the knowledge we collectively possess. We
will address the identified gaps with training, develop-
mental assignments, recruitment, or contracting,
depending on the circumstances. Our intent is to
ensure that the OIG will have the expertise necessary
to carry out our strategic and performance plans and




     "
successfully conduct work related to the Management
and Performance Challenges facing the Corporation.




44
                        Internal OIG Activities
" Issued the OIG’s FY 2003 Performance        " Issued Office of Audits’ Assignment
  Plan, which reflects an updated strategic     Plan for Fiscal Year 2003 outlining
  framework with improved linkages to           the audits and evaluations planned for
  the FDIC Strategic Plan, the OIG              fiscal year 2003. Our planned work
  Human Capital Strategic Plan, the OIG         addresses the Corporation’s three prin-
  Office of Audits’ Assignment Plan, and        cipal operational areas as presented
  the OIG-identified Management and             in the 2002 Corporate Annual Perform-
  Performance challenges facing the             ance Plan: Insurance, Supervision, and
  FDIC.                                         Receivership Management.

" Issued the OIG’s 2002 Performance           " Shared our OIG Training and Profess-
  Report.                                       ional Development System with
                                                OIGs at the Department of Commerce
" Conducted our fourth external customer        and the Department of Interior for
  survey regarding satisfaction with OIG        their use. The OIG Training and
  products, processes, and services and         Professional Development System is a
  initiated the process for conducting the      Web-based system that provides OIG
  fifth external customer survey.               management and staff with an online
                                                processing capability and timely infor-
" Participated in inter-agency Govern-
                                                mation that is used to meet profess-
  ment Performance and Results Act
                                                ional standards and requirements for
  (Results Act) interest groups sponsored
                                                continuing professional education.
  by the President’s Council on Integrity
  and Efficiency, the National Academy of     " Co-sponsored Emerging Issues
  Public Administration, and the U.S.           Symposium with Treasury and Federal
  Office of Personnel Management to             Reserve Board OIGs.
  share ideas and best practices on Results
  Act implementation.                         " Participated in the Accelerated Financial
                                                Statement Reporting Audit Working
" Submitted Fiscal Year 2004 Appropria-         Group (includes FDIC, U.S. Postal
  tion Request for $30.1 million to fund        Service, Environmental Protection
  168 positions and other resources. The        Agency, and Department of Defense
  Fiscal Year 2004 budget is $1.3 million       OIGs).
  less than the Fiscal Year 2003
  appropriation.                              " Continued active participation in the
                                                Federal Audit Executive Council.
" Completed two internal quality reviews
  on (1) Continuing Professional              " Coordinated with other federal OIGs on
  Education Credits and (2) the Office of       ongoing work of mutual interest and
  Audits’ Internal Management Control           best practices.
  and followed up on an earlier quality
  control review of Management Control        " Inspector General gave numerous
  Assessments.                                  speeches and presentations to such
                                                organizations as the Institute for
" Participated in a President’s Council on      Internal Auditors, Association of
  Integrity and Efficiency working group        Government Accountants, American
  looking into the use of social security       Society for Public Administration, and to
  numbers in the federal government             delegations of foreign visitors interested
  and concerns related to identity              in the role and mission of the Inspector
  theft and issued a related report, as         General Community.
  discussed on page 22.
                                              " Participated in Scholarship for Service
" Administered the OIG’s Business               program to provide an opportunity for
  Knowledge Inventory System data               college students to work in the federal
  collection instrument to all staff.           information security field.



                                                                                             45
     Coordination with and Assistance to FDIC Management

      " Provided risk-based assessment of         " Reviewed 35 proposed FDIC policies
        management and performance chal-            and provided substantive policy sugges-
        lenges to the Chief Financial Officer.      tions on such matters as security poli-
                                                    cies and procedures for FDIC
      " Provided advisory comments to man-          contractors and subcontractors, access
        agement on the FDIC’s 2003 Annual           control, reporting computer security
        Performance Plan and 2002 Annual            incidents, and the FDIC’s software con-
        Report.                                     figuration management policy.
      " Provided the Corporation with an          " Participated in quarterly meetings with
        updated risk analysis document on the       DSC Field Office Supervisors and
        Quality of Bank Financial Reporting and     Division Heads (DSC, DOF, OICM,
        Auditing and Corporate Governance.          DRR, Legal) to discuss current and
                                                    planned work and efforts toward
      " Completed an annual review of the
                                                    resolving open issues.
        Corporation’s Internal Control and Risk
        Management Program, concluding that       " Gave presentations at DSC Commissioned
        the program was conducted in accor-         Examiner Seminars to foster a better
        dance with FDIC policy and was consis-      understanding of OIG work.
        tent with provisions of the Federal
        Managers’ Financial Integrity Act.        " Participated in the Risk Management
                                                    Examination Process Redesign III,
      " Provided comments to the Chief              topic: delegations from DSC regional
        Operating Officer on the Corporation’s      offices to field offices regarding lower
        draft Emergency Response Plan.              risk banks.




46
      Table 1: Significant OIG Achievements
           (October 2002 – March 2003)

Audit and Evaluation Reports Issued                      27
Questioned Costs and Funds Put to Better Use  $1.26 million
Investigations Opened                                    15
Investigations Closed                                    26
OIG Subpoenas Issued                                     13
Convictions                                              14
Fines, Restitution, and Monetary Recoveries   $26.2 million
Hotline Allegations Referred                             10
Proposed Regulations and Legislation Reviewed             2
Proposed FDIC Policies Reviewed                          35
Responses to Requests and Appeals under the
  Freedom of Information and/or Privacy Acts              2




   Table 2: Nonmonetary Recommendations

 October 2000 – March 2001                          90
 April 2001 – September 2001                        34
 October 2001 – March 2002                          68
 April 2002 – September 2002                        73
 October 2002 – March 2003                          90




                                                              47
                                         OIG Counsel Activities
                                      (October 2002 – March 2003)

     The Mission of the Office of Counsel
     The Office of Counsel provides legal advice and assistance on the range of issues that have faced, are
     facing, or will face the OIG. The Office litigates (or assists in litigating) personnel and other cases;
     provides advice and counsel on matters arising during the course of audits, investigations, and
     evaluations, including reviewing reports for legal sufficiency; reviews, analyzes, and comments on
     proposed or existing regulations or legislation, including banking legislation and implementing
     regulations; communicates and negotiates with other entities on behalf of the OIG; responds to
     Freedom of Information Act and Privacy Act requests and appeals; prepares and enforces subpoenas
     for issuance by the Inspector General; and coordinates with the Legal Division, the Department of
     Justice, and other agency and governmental authorities. Examples include:

     Litigation                 Counsel’s Office represented the OIG in a hearing before a Merit Systems
                                Protection Board administrative judge during the reporting period,
                                involving a claim brought by a former employee. The Office of Counsel
                                assisted the FDIC in litigating a matter and was involved in 23 other
                                litigation matters that are awaiting further action by the parties or
                                rulings by the court or other adjudicatory bodies.

     Advice and Counseling      Counsel’s Office provided advice and counseling, including written opin-
                                ions, on issues including closed bank matters and bank supervision; the
                                Prompt Corrective Action provisions of the Federal Deposit Insurance
                                Act; the role of independent public accountants; review of the Sarbanes-
                                Oxley Act; investigative matters; contract interpretations; and various
                                ethics-related matters. In addition, Counsel’s Office provided comments
                                relative to the legal accuracy and sufficiency of 11 audit and evaluation
                                reports.

     Legislation/Regulation     During this reporting period, Counsel’s Office commented on one
     Review                     proposed piece of legislation. Counsel also reviewed one proposed formal
                                FDIC regulation and 11 FDIC policies.

     Subpoenas                  Counsel’s Office prepared 13 subpoenas for issuance by the Inspector
                                General during this reporting period.

     Freedom of Information Counsel’s Office responded to 2 requests under the Freedom of
     Act/Privacy Act        Information Act.




48
                                 Organization Chart



                                   Inspector General                            Counsel to the
                                    Gaston L. Gianni, Jr.                     Inspector General
                                 Deputy Inspector General                       Fred W. Gibson
                                     Patricia M. Black




              Office of Audits                          Office of Investigations

         Assistant Inspector General                  Assistant Inspector General
                Russell A. Rau                             Samuel M. Holland




           Office of Management                            Office of Quality
        and Congressional Relations                    Assurance and Oversight

         Assistant Inspector General                  Assistant Inspector General
                Rex Simmons                               Robert L. McGregor



Inspector General                                     Gaston L. Gianni, Jr.         202-416-2026
Deputy Inspector General                              Patricia M. Black             202-416-2474
Counsel to the Inspector General                      Fred W. Gibson                202-416-2917
Assistant Inspector General for Audits                Russell A. Rau                202-416-2543
    Deputy Asst. Inspector General for Audits          Stephen Beard                202-416-4217
    Deputy Asst. Inspector General for Audits          Sharon Smith                 202-416-2430
Assistant Inspector General for Investigations        Samuel Holland                202-416-2912
Assistant Inspector General for
Management and Congressional Relations                Rex Simmons                   202-416-2483
Assistant Inspector General for
Quality Assurance and Oversight                       Robert L. McGregor            202-416-2501




                                                                                                   49
        Figure 1: Products Issued and Investigations Closed


     20050                                                                                  ■   10/00 - 03/01*
        45                                                                                  ■   04/01 - 09/01
        40                                                                                  ■   10/01 - 03/02
        35                                                                                  ■   04/02 - 09/02
        30                                                                                  ■   10/02 - 03/03
        25
                                                                                   *Includes products related
        20
                                                                                   to OIG work that did not
        15                                                                         result in formally issued
        10                                                                         audit or evaluation reports.
         5
         0
                 Audits and Evaluations                           Investigations



        Figure 2: Questioned Costs/Funds Put to Better Use
                 (in millions)

      2008
                                                                                            ■ 10/00 - 03/01
         7                                                                                    04/01 - 09/01*
         6                                                                                  ■ 10/01 - 03/02
                           *None this period




                                                                                            ■ 04/02 - 09/02
         5
                                                                                            ■ 10/02 - 03/03
         4
         3
         2
         1
         0
                        Audits and Evaluations


        Figure 3: Fines, Restitution, and Monetary Recoveries
                  Resulting from OIG Investigations (in millions)

       900                                                                                ■   10/00 - 03/01
                                                     820
       800                                                                                ■   04/01 - 09/01
       700                                                                                ■   10/01 - 03/02
       600                                     536                                        ■   04/02 - 09/02
       500                                                                                ■   10/02 - 03/03
       400
       300
       200
       100         67
                        11.8                               26.2
         0



50                                                                                                                33
         FDIC Inspector General
      Involvement in IG Community
     As Vice Chair of the President’s Council on Integrity and
     Efficiency (PCIE), the Inspector General chaired monthly
     Council meetings and welcomed guest speakers from the
     Office of Management and Budget, U.S. General Account-
     ing Office (GAO), the Administration, and individual OIGs
     to discuss issues related to the Inspector General
     community. He spearheaded efforts to commemorate the
     upcoming 25th anniversary of the Inspector General Act.
     He also continued a variety of initiatives, including
     preparing the PCIE and the Executive Council on Integrity
     and Efficiency (ECIE) A Progress Report to the President,
     assisting with the annual PCIE/ECIE conference and
     awards program, and representing the PCIE as a speaker
     in various conferences, meetings, and foreign visitor
     programs.

     As the FDIC Inspector General, he met monthly with other
     federal regulatory Inspectors General to address matters
     of mutual concern. He also met and discussed with GAO
     representatives the various governmentwide issues and
     projects affecting the FDIC as well as the OIG.




                                               "

34
             "                                                   51
     Reporting Terms and Requirements
     Index of Reporting Requirements - Inspector General Act of 1978, as amended

     Reporting Requirement                                                Page

     Section 4(a)(2): Review of legislation and regulations                  48

     Section 5(a)(1): Significant problems, abuses, and deficiencies      11-32

     Section 5(a)(2): Recommendations with respect to
        significant problems, abuses, and deficiencies                    11-32

     Section 5(a)(3): Recommendations described in previous
        semiannual reports on which corrective action has not
        been completed                                                       54

     Section 5(a)(4): Matters referred to prosecutive authorities            33

     Section 5(a)(5) and 6(b)(2): Summary of instances where
        requested information was refused                                    62

     Section 5(a)(6): Listing of audit reports                               57

     Section 5(a)(7): Summary of particularly significant reports         11-32

     Section 5(a)(8): Statistical table showing the total number of
        audit reports and the total dollar value of questioned costs         60

     Section 5(a)(9): Statistical table showing the total number of
        audit reports and the total dollar value of recommendations
        that funds be put to better use                                      61

     Section 5(a)(10): Audit recommendations more than 6 months
        old for which no management decision has been made                   62

     Section 5(a)(11): Significant revised management decisions
        during the current reporting period                                  62

     Section 5(a)(12): Significant management decisions with
        which the OIG disagreed                                              62




52                                                                            35
Reader’s Guide to Inspector General                                                   Once management has disallowed a cost and, in effect,
Act Reporting Terms                                                                   sustained the auditor’s questioned costs, the last step in
                                                                                      the process takes place which culminates in the “final
What Happens When Auditors Identify Monetary                                          action.” As defined in the Inspector General Act, final
Benefits?                                                                             action is the completion of all actions that management
Our experience has found that the reporting terminology                               has determined, via the management decision process,
outlined in the Inspector General Act of 1978, as                                     are necessary to resolve the findings and recommenda-
amended, often confuses people. To lessen such                                        tions included in an audit report. In the case of disal-
confusion and place these terms in proper context, we                                 lowed costs, management will typically evaluate factors
present the following discussion:                                                     beyond the conditions in the audit report, such as
                                                                                      qualitative judgements of value received or the cost to
The Inspector General Act defines the terminology and
                                                                                      litigate, and decide whether it is in the Corporation’s
establishes the reporting requirements for the identifi-
                                                                                      best interest to pursue recovery of the disallowed costs.
cation and disposition of questioned costs in audit
                                                                                      The Corporation is responsible for reporting the dispo-
reports. To understand how this process works, it is
                                                                                      sition of the disallowed costs, the amounts recovered,
helpful to know the key terms and how they relate to
                                                                                      and amounts not recovered.
each other.
                                                                                      Except for a few key differences, the process for reports
The first step in the process is when the audit report
                               #                                                      with recommendations that funds be put to better use
identifying questioned costs is issued to FDIC man-
                                                                                      is generally the same as the process for reports with
agement. Auditors question costs because of an alleged
                                                                                      questioned costs. The audit report recommends an
violation of a provision of a law, regulation, contract,
                                                                                      action that will result in funds to be used more effi-
grant, cooperative agreement, or other agreement or
                                                                                      ciently rather than identifying amounts that may need
document governing the expenditure of funds. In addi-
                                                                                      to be eventually recovered. Consequently, the manage-
tion, a questioned cost may be a finding in which, at
                                                                                      ment decisions and final actions address the imple-
the time of the audit, a cost is not supported by ade-
                                                                                      mentation of the recommended actions and not the
quate documentation; or, a finding that the expenditure
                                                                                      disallowance or recovery of costs.
of funds for the intended purpose is unnecessary or
unreasonable.

The next step in the process is for FDIC management
to make a decision about the questioned costs. The
Inspector General Act describes a “management decision”
as the final decision issued by management after eval-
uation of the finding(s) and recommendation(s) includ-
ed in an audit report, including actions deemed to be
necessary. In the case of questioned costs, this manage-
ment decision must specifically address the questioned
costs by either disallowing or not disallowing these
costs. A “disallowed cost,” according to the Inspector
General Act, is a questioned cost that management, in a
management decision, has sustained or agreed should
not be charged to the government.


#
    It is important to note that the OIG does not always expect 100 percent recovery of all costs questioned.



36                                                                                                                                          53
     Appendix I: Statistical
     Information Required by
     the Inspector General Act of
     1978, as amended
     Table I.1: Significant Recommendations
     from Previous Semiannual Reports on
     Which Corrective Actions Have Not
     Been Completed
     This table shows the corrective actions management
     has agreed to implement but has not completed, along
     with associated monetary amounts. In some cases,
     these corrective actions are different from the initial
     recommendations made in the audit reports. However,
     the OIG has agreed that the planned actions meet the
     intent of the initial recommendations. The information
     in this table is based on (1) information supplied by the
     FDIC’s Office of Internal Control Management (OICM)
     and (2) the OIG’s determination of closed recommen-
     dations for reports issued after March 31, 2002. These
     35 recommendations from 8 reports involve monetary
     amounts of over $5.7 million. OICM has categorized
     the status of these recommendations as follows:
     Management Action in Process: (16 recommen-
     dations from 6 reports)
     Management is in the process of implementing the
     corrective action plan, which may include modifica-
     tions to policies, procedures, systems or controls;
     issues involving monetary collection; and settlement
     negotiations in process.
     Litigation: (19 recommendations from 2 reports,
     $5.7 million)
     Each case has been filed and is considered “in litiga-
     tion.” The Legal Division will be the final determinant
     for all items so categorized.




54                                                        37
Report Number,                    Significant      Brief Summary of Planned
Title,                            Recommendation   Corrective Actions and
and Date                          Number           Associated Monetary Amounts

Management Action In Process

EVAL-01-002                       3                Re-designate position sensitivity levels for examiner
FDIC’s Background Investigation                    positions to reflect their public trust responsibilities.
Process for Prospective and
Current Employees                 4                Alert the Security Management Section of all
August 17, 2001                                    personnel assignments to positions where users
                                                   have access to sensitive computer systems or data.

01-024                            1                Update both the Unclaimed Deposits Reporting
FDIC’s Identification of and                       System and the Corporate Accounts Receivable
Accounting for Unclaimed                           Management System with all unclaimed deposits
Deposits Transferred to State                      that the FDIC transferred to state unclaimed
Unclaimed Property Agencies                        property agencies and ensure that the two systems
December 5, 2001                                   agree.

02-024                            3                Review billings submitted by Fintek since
Marketing and Resolution of                        February 12, 2002, and ensure that all payments
Superior Federal, FSB                              comply with the terms of the contractual agreement.
(New Superior)
July 24, 2002

02-023                            1                Implement security measures that provide
Internal and Security Controls                     assurance that confidential bank examination data
Related to the General                             processed by GENESYS will be adequately protected
Examination System (GENESYS)                       from unauthorized disclosure or alteration.
July 31, 2002
                                  3*               Discontinue the practice of using shared or office-
                                                   wide passwords when accessing GENESYS to
                                                   conduct safety and soundness examinations.

02-027                            4*               Update Circular 1360.1, Automated Information
Computer Security Incident                         Systems Security Policy, Section 6, to include a
Response Team Activities                           requirement that test plans be developed and
August 28, 2002                                    approved for periodic testing of security controls
                                                   in general support systems.

                                  5*               Ensure the information security staff develops
                                                   network vulnerability test plans that meet the
                                                   documentation requirements of the Office of
                                                   Management and Budget Circular No. A-130 and
                                                   National Institute of Standards and Technology guidance.

                                  7*               Formalize and document procedures where the
                                                   oversight manager periodically reviews the
                                                   accuracy of information recorded in the tracking
                                                   system.




38                                                                                                             55
Report Number,                                   Significant                    Brief Summary of Planned
Title,                                           Recommendation                 Corrective Actions and
and Date                                         Number                         Associated Monetary Amounts

Management Action In Process (continued)

02-027                                            9*                            Update the circular, guide, and manuals requiring
Computer Security Incident                                                      the Computer Security Incident Response Team to
Response Team Activities                                                        report to other FDIC security components at the
August 28, 2002                                                                 conclusion of all investigations of computer
                                                                                security incidents.

                                                  10*                           Update Circular 1360.1, Automated Information
                                                                                Systems Security Policy, to include a requirement
                                                                                for establishing security program performance goals
                                                                                and measures.

02-035                                            1                             Develop additional policies and procedures for the
Information Security                                                            consideration of information security in acquisition
Management of FDIC Contractors                                                  planning.
September 30, 2002

                                                  2                             Develop policies and procedures to ensure that the
                                                                                appropriate information security requirements are
                                                                                incorporated into information services contracts.

                                                  3                             More clearly define oversight manager roles and
                                                                                responsibilities for contractor security.

                                                  4                             Develop the capability of oversight managers to
                                                                                monitor security practices by providing adequate
                                                                                guidance and training on security oversight and
                                                                                security evaluation.

                                                  6                             Require oversight managers to inform the
                                                                                contractors of their roles and responsibilities for
                                                                                information security; and observe and document
                                                                                contractor security practices.

Litigation

96-014                                            1, 4-16                       Recover $4,526,389 of assistance paid to Superior
Superior Bank, F.S.B., Assistance                                               Bank.
Agreement, Case Number C-389c
February 16, 1996

98-026                                            2, 3, 4, 6                    Recover $1,220,470 of assistance paid to Superior
Assistance Agreement Audit of                                                   Bank.
Superior Bank, Case Number
C-389c                                            11                            Compute the effect of understated Special Reserve
March 9, 1998                                                                   Account for Payments in Lieu of Taxes and remit
                                                                                any amounts due to the FDIC.

*The OIG has not evaluated management’s actions in response to OIG recommendations.


56                                                                                                                                     39
Table I.2: Audit Reports Issued by Subject Area
                                                                                                  Funds Put To
Number and           Audit Report                                Questioned Costs                 Better
Date                 Title                               Total                      Unsupported   Use
Supervision and Insurance

03-004              OCC’s and OTS’s Responses to
November 6, 2002    the OIG’s February 2002 Follow-
                    up Report on the FDIC’s Use of
                    Special Examination Authority and
                    DOS’s Efforts to Monitor Large
                    Bank Insurance Risk

03-006              DSC Procedures for Addressing
November 18, 2002   Deviations from Business Plans by
                    Newly Established Banks

03-009              Examiner Assessment of High
December 23, 2002   Loan-Growth Institutions

03-008              Examiner Assessment of
January 3, 2003     Commercial Real Estate Loans

03-017              Material Loss Review of the
March 10, 2003      Failure of the Connecticut Bank of
                    Commerce, Stamford, Connecticut

03-019              Division of Supervision and
March 18, 2003      Consumer Protection’s
                    Examination Assessment of
                    Subprime Lending

03-018              FFIEC Call Report Modernization
March 21, 2003      Cost Benefit Analysis

03-021              FDIC Examiner Use of Work
March 26, 2003      Performed by Independent Public
                    Accountants

EVAL-03-025         Division of Supervision and
March 27, 2003      Consumer Protection’s
                    Examination of Transactions With
                    Affiliates

03-022              Division of Supervision and
March 31, 2003      Consumer Protection’s Reporting
                    on Issues Related to Problem Banks



40                                                                                                               57
Table I.2: Audit Reports Issued by Subject Area
                                                                                               Funds Put To
Number and          Audit Report                              Questioned Costs                 Better
Date                Title                             Total                      Unsupported   Use
Receivership and Legal Affairs

EVAL-03-005         FDIC’s Corporate Readiness
November 4, 2002    Plan

03-012              Controls Over the Use and
February 14, 2003   Protection of Social Security
                    Numbers by Federal Agencies

03-027              Division of Resolutions and                                                $37,242
March 31, 2003      Receiverships’ Controls Over
                    Data Input to the Service
                    Costing System

Information Assurance

03-001              Integration of Information
October 2, 2002     Security into the Capital
                    Planning and Investment
                    Control Process

03-007              Phase II Network Operations
November 27, 2002   Vulnerability Assessment

03-016              New Financial Environment
March 5, 2003       Project Control Framework

Resource Management

03-003              Controls Over Board Members’
October 3, 2002     Travel

03-013              FDIC Procurement Credit Card
January 31, 2003    Program

03-020              Travel, Relocation, and State
March 24, 2003      Income Tax Withholding
                    Policies and Procedures

03-024              Internal Control Over
March 27, 2003      Receivership Receipts

03-026              Internal Control Over
March 28, 2003      Receivables from Failed
                    Insured Depository Institutions




58                                                                                                            41
Table I.2: Audit Reports Issued by Subject Area
                                                                                                    Funds Put To
Number and                   Audit Report                          Questioned Costs                 Better
Date                         Title                         Total                      Unsupported   Use
Post-award Contracts Audits

03-010                        Post-award Contract Review           $ 11,308$                        $781,140
December 24, 2002

03-011                        Post-award Contract Review           $291,373$
January 10, 2003

03-015                        Post-award Contract Review           $ 11,676%
February 25, 2003

EVAL-03-023                   Post-award Contract Review                                            $127,396
March 27, 2003
Preaward Reviews

03-002                        Preaward Contract Review
October 9, 2002

03-014                        Preaward Contract Review
February 5, 2003

TOTALS FOR THE PERIOD                                              $314,357                         $945,778


   $
       Management decision pending.
   %
       Management response not due until April 25, 2003.




42                                                                                                             59
 Table 1.3: Audit Reports Issued with Questioned Costs

                                                                                                                       Questioned Costs
                                                                                       Number
                                                                                                             Total                           Unsupported

 A.       For which no management decision has
          been made by the commencement of
          the reporting period.                                                           1                    $ 215,174                             $ 0


 B.       Which were issued during the reporting period.                                  3                        314,357                             0


 Subtotals of A & B                                                                       4                        529,531                             0


 C.       For which a management decision was
          made during the reporting period.                                               1                        215,174                             0


          (i)    dollar value of disallowed costs.                                        1                          25,484                            0


          (ii)   dollar value of costs not disallowed.                                    1#                       189,690                             0


 D.       For which no management decision has
          been made by the end of the reporting period.                                   3*                       314,357                             0


          Reports for which no management
          decision was made within 6 months of issuance.                                  0                    $         0                           $ 0

      #
          The one report included on the line for costs not disallowed is also included in the line for costs disallowed, since management did not
          agree with some of the questioned costs.

      *Management response not due until April 25, 2003, for one report with questioned costs totaling $11,676.




60                                                                                                                                                         43
Table I.4: Audit Reports Issued with Recommendations for Better Use of Funds

                                                                          Number                                   Dollar Value


A. For which no management decision has been
   made by the commencement of the reporting period.                          1                                    $1,559,418

B. Which were issued during the reporting period.                             3                                        945,778


Subtotals of A & B                                                            4                                     2,505,196


C. For which a management decision was made
   during the reporting period.                                               3                                     1,724,056


   (i) dollar value of recommendations that were
       agreed to by management.                                               3                                     1,617,160


         - based on proposed management action.                               3                                     1,617,160


         - based on proposed legislative action.                              0                                              0


   (ii) dollar value of recommendations that were
        not agreed to by management.                                         1$                                        106,896

D. For which no management decision has
   been made by the end of the reporting period.                              1                                        781,140

   Reports for which no management decision was
   made within 6 months of issuance.                                          0                                    $         0


  $
      The one report included on the line for recommendations not agreed to by management is also included in the line for
      recommendations agreed to by management since management did not agree with some of the funds put to better use.




44                                                                                                                                61
 Organization

Table I.5: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations without management decisions.



Table I.6: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.



Table I.7: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.



Table I.8: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




62                                                                                                           45
Abbreviations and Acronyms

ATM       Automated Teller Machine                FRB           Federal Reserve Board
BACU      Bank Account Control Unit               GAO           U.S. General Accounting Office
BIF       Bank Insurance Fund                     GENESYS       General Examination System
CBA       cost benefit analysis                   GISRA         Government Information Security
                                                                Reform Act
CBC       Connecticut Bank of Commerce
                                                  HCSB          Hartford-Carlisle Savings Bank
CCP       Country Club Properties, LP
                                                  IFS           Institution for Savings
CFO       Chief Financial Officer
                                                  IG            Inspector General
COO       Chief Operating Officer
                                                  IPA           Independent Public Accountant
CPICP     Capital Planning and Investment
          Control Process                         IRS           Internal Revenue Service
CRA       Community Reinvestment Act              IT            Information Technology
CRP       Corporate Readiness Plan                NFE           New Financial Environment
DIRM      Division of Information Resources       OCC           Office of the Comptroller of the
          Management                                            Currency
DOA       Division of Administration              OI            Office of Investigations
DOF       Division of Finance                     OICM          Office of Internal Control Management
DOS       Division of Supervision                 OIG           Office of Inspector General
DRR       Division of Resolutions and             OTS           Office of Thrift Supervision
          Receiverships
                                                  PCIE          President’s Council on Integrity and
DSC       Division of Supervision and Consumer                  Efficiency
          Protection
                                                  PDD           Presidential Decision Directive
ECIE      Executive Council on Integrity and
          Efficiency                              PwC           PricewaterhouseCoopers Consulting

EFC       Equity Funding Corporation              Results Act   Government Performance and Results
                                                                Act
FBI       Federal Bureau of Investigation
                                                  RTC           Resolution Trust Corporation
FDI Act   Federal Deposit Insurance Act
                                                  SAIF          Savings Association Insurance Fund
FDIC      Federal Deposit Insurance Corporation
                                                  SSN           Social Security Number
FFIEC     Federal Financial Institutions
          Examination Council                     UDA           unclaimed deposits amendments

FISMA     Federal Information Security            UFSB          Universal Federal Savings Bank
          Management Act of 2002




46                                                                                                     63
Congratulations to Award Recipients                        Inspector General Receives Association
Two Members of the OIG Staff Receive FDIC                  of Government Accountants’
Awards                                                     Distinguished Federal Leadership
We are proud of two staff members from the Office of
Inspector General’s Office of Audits who received recog-
                                                           Award
nition at the Corporation’s Annual Awards Ceremony
                                                           Inspector General Gianni received the Association of
on March 12, 2003.
                                                           Government Accountants’ (AGA) Distinguished Federal
                                                           Leadership Award. This award formally recognizes
                                                           elected or Presidentially appointed federal officials who
                                                           exemplify and promote excellence in government man-
                                                           agement and have demonstrated outstanding leadership
                                                           in enhancing sound financial management legislation,
                                                           regulations, practices, policies, and systems. The AGA
                                                           award acknowledged the Inspector General’s 38-year
                                                           federal career dedicated to promoting economy, efficiency,
                                                           effectiveness, and integrity throughout government.



            Pictured left to right: G. Gianni, S. Smith,
            S. Beard, M. Lombardi, R. Rau.

Mike Lombardi was recognized as part of the Risk
Management Examination Process Redesign 2 (MERIT)
Team that received the Chairman’s Excellence Award
for Group/Team Contributions.




                                                                           Inspector General receives AGA
                                                                           award from Bill Anderson,
                                                                           National President.




            Pictured left to right: FDIC Chairman
            Powell, M. Galvin, G. Gianni.

Monte Galvin received the Nancy K. Rector Public
Service Award for her dedicated involvement over the
past 3 years with Habitat for Humanity.




64                                                                                                               47
OIG Recognizes Staff
               David H. Loewenstein                         Government Superior Court, the Department of Justice
               David retired after more than 13 years of    Immigration and Naturalization Service, and the FDIC.
               dedicated service to the Federal Deposit     She provided valuable administrative support to the
               Insurance Corporation and over 25 years      OIG, contributed greatly to programs for Administra-
               of federal service. An FDIC Board            tive Professionals Week and related activities, and
               Resolution signed by FDIC Chairman           helped with the FDIC OIG Diversity Action Plan.
               Donald E. Powell was presented to David
in honor of his retirement. During the banking crisis,
David worked to improve the operations of the
Corporation, particularly in the area of receivership                      Sandra Harding
management for failed institutions. He played a key                        Sandra retired after more than 20 years
role in the OIG during and after the FDIC’s merger                         of federal service. Her career included
with the Resolution Trust Corporation. His efforts in                      working in the Offices of Inspector
establishing a new function within the OIG enabled                         General of the FDIC, Department of
our office to more effectively meet its responsibility to                  Defense, and Federal Home Loan Bank
interact with the Congress.                                                Board. As a Senior Audit Specialist, she
                                                            was responsible for conducting audits of corporate
David’s career also included service at the Federal         programs in the supervision and compliance divisions
Home Loan Bank Board OIG, where he focused man-             of the FDIC. Her efforts resulted in recommendations
agement attention on significant issues and helped          to improve the efficiency and effectiveness of FDIC
establish a highly effective OIG. Throughout his career     operations and help ensure the safety and soundness of
he also worked unselfishly with charitable and social       the nation’s banking system.
causes, including work on behalf of high-risk youth.

                                                                           Josef Bartos
              Naomi Pully                                                  Josef retired after more than 11 years of
              Naomi’s 25-year government career                            federal service. He distinguished himself
              included service at the FDIC, Department                     through his work in developing the
              of the Treasury, Federal Mediation and                       OIG’s major information systems. Other
              Conciliation Service, Federal Home Loan                      notable achievements included his
              Bank Board, and Office of Thrift                             efforts on the OIG’s Y2K Readiness
              Supervision. At the FDIC OIG, Naomi           Project and assistance to OIG staff with their computer
provided valuable administrative support to the Office      and information needs. Overall, Josef’s keen analytical
of Audits. She participated actively in the International   skills, database expertise, and extensive computer
Association of Administrative Professionals and served      knowledge served to enhance OIG operations and
as 1999-2000 President for the District of Columbia         effectiveness.
Chapter, a commitment that earned her the
Distinguished Chapter President’s Award.
                                                                          Gloria Hill
                                                                          The OIG salutes Gloria Hill who was
              Shelia Straughn                                             recalled to active duty in the Naval
              After more than 20 years of federal serv-                   Reserve in early March 2003.
              ice, Shelia retired from the FDIC. Her
              career began at the U.S. Department of
              Housing and Urban Development and
              later included positions with the D.C.



48                                                                                                               65
     Inspector General Community
        Efforts Produce Results




                                                                                           "
 The FDIC OIG is proud to be a part of the Inspector
 General community, whose efforts across the govern-
 ment during fiscal year 2002 produced impressive
 results, as highlighted in the President’s Council on
 Integrity and Efficiency and the Executive Council on
 Integrity and Efficiency’s A Progress Report to the
 President. Thousands of audits, investigations, and other
 reviews offered recommendations to promote economy,




                                                                 "
 efficiency, and effectiveness, as well as prevent and
 detect fraud, waste, and abuse in federal programs and
 operations. These results include:

 ● Potential savings of nearly $72 billion.
 ● Nearly 10,700 successful criminal prosecutions.
 ● Suspensions or debarments of over 7,600 individuals
   or businesses.
 ● Almost 2,200 civil or personnel actions.
 ● More than 5,700 indictments and criminal informations.
 ● Over 234,000 complaints processed.
 ● More than 90 testimonies before the Congress.


 These accomplishments reflect the work of over 11,000
 men and women in 57 offices throughout the federal
 government.




                                                                                                  "
                                                             For additional information about the IG
                                                             community, visit www.ignet.gov




66                                                                                                     49
Federal Deposit Insurance Corporation • Office of Inspector General
801 17th St., NW • Washington, D.C. 20434
